<html>
<title> - U.S. POLICY TOWARD NORTH KOREA: WHERE DO WE GO FROM HERE?</title>
<body><pre>[Senate Hearing 107-54]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-54

        U.S. POLICY TOWARD NORTH KOREA: WHERE DO WE GO FROM HERE?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                   U.S. GOVERNMENT PRINTING OFFICE
73-070                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
CRAIG THOMAS, Wyoming                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin
LINCOLN D. CHAFEE, Rhode Island      PAUL D. WELLSTONE, Minnesota
GEORGE ALLEN, Virginia               BARBARA BOXER, California
SAM BROWNBACK, Kansas                ROBERT G. TORRICELLI, New Jersey
                                     BILL NELSON, Florida
                   Stephen E. Biegun, Staff Director
                Edwin K. Hall, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................    10
Downs, Chuck, former Senior Defense and Foreign Policy Advisor, 
  House Republican Policy Committee; and consultant, McLean, VA..    11
    Prepared statement...........................................    13
Gallucci, Hon. Robert L., dean, Georgetown University, Edmund A. 
  Walsh School of Foreign Service, Washington, DC................     2
    Prepared statement...........................................     5
Laney, Hon. James T., co-chair, Council on Foreign Relations 
  Korea Task Force, Atlanta, GA..................................     7
    Prepared statement...........................................     9
Vollertsen, Dr. Norbert, volunteer, German Emergency Doctors, 
  Germany........................................................    17
    Report and prepared statement................................    19

                                 (iii)

  

 
       U.S. POLICY TOWARD NORTH KOREA: WHERE DO WE GO FROM HERE?

                              ----------                              


                        WEDNESDAY, MAY 23, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:45 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Biden, and Bill Nelson.
    The Chairman. The committee will come to order. We have a 
rollcall vote on in the Senate, and other members are at least 
delayed. I hope some of them will be able to get here, but I 
have been authorized by the minority to proceed, which I 
appreciate.
    This afternoon, the Foreign Relations Committee will be 
addressing U.S. policy regarding North Korea. Now, before 
getting into the Bush administration's review of this policy, I 
think it is worth remembering with whom we are dealing. The 
Communist dictatorship in North Korea has been one of the most 
evil regimes in this world. In more than 50 years the rulers of 
Pyongyang have terrorized, tortured, imprisoned, and murdered 
their own people, all of whom, and all of which continues to 
this good day, unabated, as we meet here in Washington, DC.
    Freedom House has described North Korea as, ``arguably the 
most tightly controlled country in the world.'' Now, that 
control is exercised through a variety of means, one being a 
penal code right out of George Orwell's ``1984.'' According to 
the State Department, the North Korean Penal Code stipulates 
capital punishment for, and I am quoting, ``crimes against the 
revolution,'' and that includes ``defection, attempted 
defection, slander of the policies of the party or State, 
listening to foreign broadcasts, writing reactionary letters, 
and possessing critical material.''
    In recent years, upwards of 10 percent of its population 
perished from starvation and disease, but the North Korean 
regime is continuing to lavish its funds on its huge and 
offensively posturing military while watching the distribution 
of food by foreign humanitarian groups.
    Now, several questions I think must be addressed concerning 
the policy of the United States regarding North Korea, but all 
of them in my view must be premised upon a clear understanding 
of the despicable regime with which we are dealing.
    One issue that is properly being reviewed by the Bush 
administration is the future of what is called the Agreed 
Framework. Now, I have never believed that it has been sensible 
to provide nuclear reactors to North Korea, a regime that has a 
history of aggression and is a proven proliferator of weaponry. 
Now, what conceivable interest does it serve the United States 
to give nuclear technology to such a regime?
    In late 2000, it was reported that the Clinton 
administration sought South Korean and Japanese support for 
replacing the nuclear reactors with conventional power plants, 
and in March of this year the author of the Agreed Framework, 
Robert Gallucci, whom we have with us today, expressed his 
preference for the conventional power option.
    Last, we must consider the threat posed to the United 
States and its allies by North Korea's ongoing missile program. 
We already know that from its 1998 test that North Korea has 
the capability to deliver a sizable warhead to Alaska and 
Hawaii. Moreover, we have yet to deal with North Korea's 
missile production deployment and/or exports.
    In its zeal to dispense with the nuclear era and missile 
threat from North Korea and foster relations with its inhuman 
and dictatorial regime, the Clinton administration completely 
ignored North Korea's massive conventional army that still 
looms just over the border from Seoul, and we will continue to 
do that at our own peril.
    So those are among the issues that I hope that our 
witnesses will examine today, and Senator Biden, when he comes, 
and if he is able to come, we will yield to him wherever we 
stand in the process.
    I am very pleased and proud of the witnesses here today, 
and I am grateful to each of you for being here, and if I get 
your name wrong, please correct me. Dr. Norbert Vollertsen. 
This gentleman is formerly of the German Emergency Doctors, a 
humanitarian group assisting North Korea. Mr. Chuck Downs, 
former Deputy Director of the East Asian Office of the 
Pentagon, and author of the book, ``Over the Line: North 
Korea's Negotiating Strategy.'' I had a copy here, and I will 
get it back. Ambassador Robert Gallucci, dean of the Georgetown 
School of Foreign Service, and last but not least, Ambassador 
James Laney, former Ambassador to South Korea.
    And I suppose I always believe in starting on the left and 
proceeding to the right, so we end up in the right. Dr. 
Gallucci, we will be glad to hear from you. I believe there has 
been some agreement about our timing so that we can have a lot 
of questions. You may proceed, sir.

    STATEMENT OF HON. ROBERT L. GALLUCCI, DEAN, GEORGETOWN 
    UNIVERSITY, EDMUND A. WALSH SCHOOL OF FOREIGN SERVICE, 
                         WASHINGTON, DC

    Ambassador Gallucci. Thank you, Mr. Chairman. Let me begin 
by saying that I am grateful and honored to have the 
opportunity to appear before you today and speak to the 
question of our future policy toward North Korea.
    Mr. Chairman, with your permission I would like to submit a 
slightly longer statement for the record.
    The Chairman. Yes, sir. We appreciate that. You can read 
from it as you please.
    Ambassador Gallucci. It seems to me that we should begin to 
address this question by clearly stating that we do not want to 
go back to the past, to where we were 8 years ago. It was, in 
fact, on May 26, 1993 that I appeared before this committee to 
explain the Clinton administration's approach to the developing 
crisis over North Korea's nuclear weapons program.
    Then we estimated that the Democratic People's Republic of 
Korea's [DPRK] existing research reactor, plus two more 
reactors under construction and an expanded reprocessing 
facility would give the North Koreans the capability to produce 
and separate annually roughly 150 kilograms of plutonium, 
easily enough for 30 nuclear weapons within 3 to 5 years.
    Today, all the facilities we identified as essential to 
North Korea's nuclear weapons program are frozen and open to 
inspection. The DPRK remains in the nonproliferation treaty, 
and, under the terms of the 1994 Agreed Framework, the North 
will satisfy the International Atomic Energy Agency [IAEA] on 
all inspection issues before it can begin receiving equipment 
necessary to construct the light water reactors envisioned in 
the framework. Moreover, there has been a noticeable reduction 
in tensions between North and South Korea, as well as a 
significant amount of diplomatic engagement by the North with a 
number of countries around the world.
    That said, we are not now where we wish to be with North 
Korea, far from it. I would state our objectives in priority 
order as first preserving our alliances with Japan and the 
Republic of Korea and protecting their security; second, 
preventing North Korea from acquiring nuclear weapons and a 
nuclear weapons production capability; third, reducing the risk 
of a war on the Korean Peninsula; fourth, preventing the North 
from further testing, production, deployment, or export of 
extended range ballistic missiles and ballistic missile 
technology; and fifth, promoting improved relations between 
North and South, leading to a reunified nation with a 
democratic government and a market economy.
    To achieve these objectives, we should try to preserve the 
Agreed Framework so long as we believe it is denying North 
Korea the capability to produce fissile material for nuclear 
weapons. In other words, if we should conclude that there is 
good evidence that the North is cheating on its terms by 
constructing secret nuclear facilities, as we did in 1998, then 
we should do what we did then, insist on whatever access is 
necessary to resolve our concerns.
    Note here that the access we enjoyed in that case did not 
come from any verification provisions in the Agreed Framework. 
It came from the political realities of our relationship. The 
benefits that flow to the North by virtue of the framework gave 
us sufficient leverage to gain access to the site that was the 
focus of our concern. This should be instructive as we consider 
other arrangements with North Korea where we may wish to have 
strict verification procedures.
    The alternative to those procedures is not trust--the 
Agreed Framework could be considered a monument to the highest 
levels of mistrust between two nations--but a carefully crafted 
deal that exposes neither side to more harm than it would 
suffer absent an agreement, even if the other side does cheat, 
and that provides a basis for inspection to resolve concerns 
about cheating.
    Second, if we conclude that there is virtue in trying to 
improve the terms of the Agreed Framework by, for example, 
seeking to substitute fossil-fueled power plants for the 
nuclear reactors described in the framework, then we should 
approach the North only after consultation with, and the 
concurrence of, our allies in Seoul and Tokyo, and with no 
threat to the North that we would unilaterally abandon the 
framework if they did not accept the approach.
    The point here is that our treaty allies who were with us 
throughout the negotiations of the framework have agreed to 
bear nearly the entire burden of the nuclear reactor 
construction cost, have put their own domestic political 
interests and bilateral relationship with the North at risk, 
and are of overriding importance to the United States long-term 
strategic goals in Northeast Asia.
    As for the acceptance by the North Koreans, that follows 
from the first point, that we should not abandon the framework 
so long as it is fulfilling its primary purpose.
    Third, we should clearly engage the North Koreans in a 
negotiation to see if we cannot end the threat that their 
ballistic missile program now poses to Japan, will pose to the 
United States, and does pose to the stability of South Asia and 
the Middle East by virtue of exports to those regions. We 
should do this not because we trust North Korea to live up to 
an agreement, but because we may be able to negotiate the 
verification provisions we need to monitor compliance, or craft 
an arrangement that improves our security and that of our 
allies, even if we achieve less than what we might want in 
inspection procedures.
    The policy question revolves around defining available 
alternatives to achieve our national security objectives, and 
then making the right comparison when assessing a possible 
agreement, comparing the best deal that can be made with the 
North to making no deal at all, rather than to some notion of 
an ideal agreement.
    Fourth, in close coordination with our allies from the 
South, we should eventually seek to engage the North in 
discussions that would reduce the risk of a conventional 
conflict on the Korean Peninsula. This would involve the kinds 
of confidence and security-building measures proposed and 
implemented elsewhere that reduce the risk of surprise attack, 
and increase levels of transparency on both sides.
    Finally, we should be willing to engage the North in 
discussions of political, economic, and security issues, always 
in consultation with our allies, with the long-term objective 
of reducing tensions on the peninsula and contributing to a 
process that would lead to reunification. We should do this 
with our eyes open, aware that we do not know what calculations 
the leadership of North Korea is making in its recent openings 
to the United States, South Korea, and the rest of the world.
    Anyone who has read the history of that country over the 
last 50 years, or reads the newspaper today, knows that North 
Korea has been responsible for war and horrendous acts of 
terrorism in the past, and that there are no guarantees about 
its future policy, as welcome as some of its policies of the 
last few years may be. Moreover, the regime in the North is as 
close to totalitarian as any on earth today, and we should not 
be optimistic about internal transformations any time soon.
    But to conclude from this dismal picture that negotiation 
is wrong, that we should not reward North Korea with political 
and economic benefits in exchange for the outcomes we seek, is 
to retreat to superficially pleasing rhetoric that highlights 
the threat posed by North Korea, but offers no plausible policy 
to address it. Neither a policy of sanctions nor one that 
simply enhanced our defense and deterrent posture in the region 
would prevent North Korea from developing nuclear weapons and 
ballistic missiles that would directly threaten our country.
    Were we to use force to block these programs, we would in 
the end no doubt prevail, but at the cost of lives, perhaps 
many lives. To do this unnecessarily, without exploring 
negotiated solutions, would not be in our Nation's interest, 
that of our allies, and certainly not in the best interests of 
the 37,000 Americans currently deployed in South Korea.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Gallucci follows:]

             Prepared Statement of Hon. Robert L. Gallucci

    Mr. Chairman and members of the Committee, let me begin by saying 
that I am grateful and honored to have the opportunity to appear before 
you today and speak to the question of our future policy toward North 
Korea.
    It seems to me, that we should begin to address this question by 
clearly stating that we do not want to go back to the past, to where we 
were eight years ago. It was, in fact, on May 26th of 1993 that I 
appeared before this Committee to explain the Clinton Administration's 
approach to the developing crisis over North Korea's nuclear weapons 
program. Then, we estimated that the DPRK's existing research reactor, 
plus two more reactors under construction, and an expanded reprocessing 
facility, would give the North the capability to produce and separate, 
annually, roughly one hundred and fifty kilograms of plutonium, easily 
enough for thirty nuclear weapons, within three to five years. The DPRK 
had also announced its intention to withdraw from the Nuclear Non-
Proliferation Treaty, and indicated that it would never accept the 
special inspections that the International Atomic Energy Agency said 
were necessary to determine how much plutonium it had produced in the 
past. In addition, relations between North and South Korea were tense 
and intermittently marked by provocations from North Korea, a country 
that was essentially isolated from the international community.
    Today, all the facilities that we identified as essential to North 
Korea's nuclear weapons program are frozen and open to inspection, the 
DPRK remains in the NPT and, under the terms of the 1994 Agreed 
Framework, the North will satisfy the IAEA on all inspection issues 
before it can begin receiving equipment necessary to construct the 
light water reactors envisioned in the Framework. Moreover, there has 
been a noticeable reduction in tensions between North and South Korea, 
as well as a significant amount of diplomatic engagement by the North 
with a number of countries around the world.
    That said, we are not now where we wish to be with North Korea; far 
from it. I would state our objectives, in priority order, as

  <bullet> preserving our alliances with Japan and the Republic of 
        Korea, and protecting their security;

  <bullet> preventing North Korea from acquiring nuclear weapons and a 
        nuclear weapons production capability;

  <bullet> reducing the risk of a war on the Korean peninsula;

  <bullet> preventing the North from further testing, production, 
        deployment or export of extended range ballistic missiles and 
        ballistic missile technology; and

  <bullet> promoting improved relations between North and South leading 
        to a reunified nation with a democratic government and a market 
        economy.

    To achieve these objectives, we should first try to preserve the 
Agreed Framework, so long as we believe that it is denying North Korea 
the capability to produce fissile material for nuclear weapons. In 
other words, if we should conclude that there is good evidence that the 
North is cheating on its terms by constructing secret nuclear 
facilities, as we did in 1998, then we should do what we did then: 
insist on whatever access is necessary to resolve our concerns. Note 
here that the access we enjoyed in that case did not come from any 
verification provisions in the Agreed Framework. It came from the 
political realities of our relationship. The benefits that flow to the 
North, by virtue of the Framework, gave us sufficient leverage to gain 
access to the site that was the focus of our concern. This should be 
instructive as we consider other arrangements with North Korea where we 
may wish to have strict verification procedures. The alternative to 
those procedures is not trust--the Agreed Framework could be considered 
a monument to the highest levels of mistrust between two nations--but a 
carefully crafted deal that exposes neither side to more harm than it 
would suffer absent an agreement, even if the other side does cheat, 
and that provides a basis for inspection to resolve concerns about 
cheating.
    Second, if we conclude that there is virtue in trying to improve 
the terms of the Agreed Framework by, for example, seeking to 
substitute fossil fueled power plants for the nuclear reactors 
described in the Framework, then we should approach the North only 
after consultation with and concurrence of our allies in Seoul and 
Tokyo, and with no threat to the North that we would unilaterally 
abandon the Framework if they did not accept our approach. The point 
here is that our Treaty allies were with us throughout the negotiations 
of the Framework, have agreed to bear nearly the entire burden of the 
nuclear reactor construction cost, have put their own domestic 
political interests and bilateral relationship with the North at risk, 
and are of overriding importance to the United States' long-term 
strategic goals in Northeast Asia. As for the acceptance by the North 
Koreans, that follows from the first point, that we should not abandon 
the Framework so long as it is fulfilling its primary purpose.
    Third, we should clearly engage the North Koreans in negotiation to 
see if we cannot end the threat that their ballistic missile program 
now poses to Japan, will pose to the United States, and does pose to 
the stability of South Asia and the Middle East by virtue of exports to 
those regions. This is the course that the Clinton Administration was 
on right up until the very end when Secretary of State Madeleine 
Albright visited Pyongyang last year. It is entirely consistent with 
the course set by former Secretary of Defense Perry in his report on 
``where we should go from here'' with North Korea. We should do this, 
not because we trust North Korea to live up to an agreement, but 
because we may be able to negotiate the verification provisions we need 
to monitor compliance, or craft an arrangement that improves our 
security and that of our allies, even if we achieve less than what we 
might want in inspection procedures. For example, monitoring 
commitments not to test extended range ballistic missiles or to refrain 
from certain exports of material or technology, might be less demanding 
in terms of inspections than monitoring production or even deployment 
of those missiles. The policy question revolves around defining 
available alternatives to achieve our national security objectives, and 
then making the right comparison when assessing a possible agreement: 
comparing the best deal that can be made with the North to making no 
deal at all--rather than to some notion of an ideal agreement.
    Fourth, in close coordination with our allies in the South, we 
should eventually seek to engage the North in discussions that would 
reduce the risk of a conventional conflict on the Korean peninsula. 
This would involve the kinds of confidence and security building 
measures proposed and implemented elsewhere that reduce the risk of 
surprise attack and increase levels of transparency on both sides.
    Finally, we should be willing to engage the North in discussions of 
political, economic and security issues, always in consultation with 
our allies, with the long-term objective of reducing tensions on the 
peninsula and contributing to a process that would lead to 
reunification. We should do this with our eyes open, aware that we do 
not know what calculations the leadership of North Korea is making in 
its recent openings to the United States, South Korea and the rest of 
the world. Anyone who has read the history of that country over the 
last fifty years, or reads the newspaper today, knows that North Korea 
has been responsible for war and horrendous acts of terrorism in the 
past, and that there are no guarantees about its future policy, as 
welcome as some of its policies of the last few years may be. Moreover, 
the regime in the North is as close to totalitarian as any on earth 
today, and we should not be optimistic about internal transformations 
any time soon.
    But to conclude from this dismal picture that negotiation is wrong, 
that we should not ``reward'' North Korea with political or economic 
benefits in exchange for the outcomes we seek, is to retreat to 
superficially pleasing rhetoric that highlights the threat posed by 
North Korea, but offers no plausible policy to address it. Neither a 
policy of sanctions nor one that simply enhanced our defense and 
deterrent posture in the region would prevent North Korea from 
developing nuclear weapons and ballistic missiles that would directly 
threaten our country. Were we to use force to block these programs, we 
would in the end no doubt prevail, but at the cost of lives, perhaps 
many lives. To do this unnecessarily, without exploring negotiated 
solutions would not be in our nation's interest, that of our allies, 
and certainly not in the best interests of the thirty-seven thousand 
Americans currently deployed in South Korea.
    Thank you Mr. Chairman.

    The Chairman. Thank you, sir.
    We have been joined by the distinguished Senator from 
Florida, Senator Bill Nelson. Sir, do you have any opening 
comments?
    Senator Nelson. Mr. Chairman, no. Just, I am ready to 
participate in the questioning. I thank you.
    The Chairman. We appreciate your coming.
    Ambassador Laney. That is a familiar name down in my 
country.

STATEMENT OF HON. JAMES T. LANEY, CO-CHAIR, COUNCIL ON FOREIGN 
            RELATIONS KOREA TASK FORCE, ATLANTA, GA

    Ambassador Laney. I want to thank you for the privilege of 
appearing here today. I have been involved with Korea since I 
first went there in the Army in 1946 in counterintelligence, 
later returned as an educational missionary, and more recently 
served as Ambassador, so Korea is something that is close to my 
heart and to all of our concerns.
    In my mind there are three parts to our Korea policy. The 
first is to maintain with our staunch ally, Seoul, a robust and 
unassailable deterrence, the second is to support the South's 
initiatives toward the North in reducing tension and 
encouraging Pyongyang to open up to the rest of the world, the 
third is for the United States to engage the North in 
negotiations designed to end the threat of nuclear weapons and 
missiles on the peninsula.
    The first, the United States must continue to invest in the 
U.S.-ROK security partnership. That alliance has been 
extraordinarily successful in underpinning stability in 
Northeast Asia not just on the peninsula and establishing a 
position of strength from which South Korea could test 
reconciliation with the North.
    Seoul has clearly stated that the U.S. military will remain 
critical to its security even after the North Korean threat has 
gone, whenever that might be. It is consistent with Seoul's 
efforts at reconciliation for the U.S. and ROK Governments to 
point in specific terms to the North Korean threat and to 
continue reinforcing deterrence, particularly in the areas of 
counterbattery fire missile defense and protection against 
weapons of mass destruction. The United States should improve 
U.S.-ROK joint readiness in these areas and begin preparing the 
alliance relationship for a longer term role in regional 
security.
    Second, South Korea has made important progress in tension 
reduction with the North, and should have U.S. support. Seoul's 
strategy of cooperation and reconciliation with North Korea has 
moved the political dynamics on the peninsula in a positive 
direction. It is true that without a reduction of the North 
Korean military threat and improvement in human rights in the 
North, diplomacy with Pyongyang can only go so far. That is a 
given. However, these should be the goals of our policy and not 
preconditions for the South's efforts at tension reduction. Kim 
Dae-jung's focus on reconciliation is the right way to begin 
the process and is clearly in U.S. interests, and we should 
offer full support for his initiatives.
    Third, it is in the U.S. interest to negotiate a verifiable 
elimination of North Korea's long-range missile program. Last 
year, North Korea appeared interested in negotiating a 
comprehensive agreement to reduce its long-range ballistic 
missiles in exchange for various inducements. Such an agreement 
cannot be achieved without lengthy and deliberate negotiations, 
followed by effective verification measures. Nevertheless, the 
scope of North Korea's proposal was unprecedented, and the 
North would have prohibited all exports of long-range missiles 
and related items in exchange for in-kind assistance in such 
categories as food and medicine.
    In addition, the North said it would ban further indigenous 
testing and production above a certain range, in exchange, 
again, for in-kind compensation. However, in working level 
talks the North balked at intrusive verification, did not 
address their deployed missiles, and remained vague about the 
threshold of the long-range missiles. For that reason, there 
were no talks.
    The United States should resume talks on missiles in the 
near future, but should make the bottom line clear: effective 
verification, elimination of long-range missiles, a danger that 
the chairman has pointed to, provision of in-kind assistance to 
the North that would not include sensitive technology, and a 
movement toward subsequent steps to reduce tensions in the 
conventional military threat.
    If those objectives can be met, a broad agreement with 
North Korea on missiles would be significant accomplishment, 
and would enhance stability in northeast Asia, and the South's 
efforts at reconciliation. In the meantime, I think the United 
States should invite its allies to review the Agreed Framework 
but without any unilateral changes by any party. For that 
reason, I defer to Ambassador Gallucci's comments.
    The 1994 Agreed Framework has frozen North Korea's known 
nuclear weapons. Any review should focus on both remaining 
challenges to full implementation of the Framework Agreement as 
well as opportunities to engage North Korea on a revision of 
the terms to meet Pyongyang's immediate energy needs. I would 
also want to say that the United States would be wise to 
continue its energetic trilateral U.S.-ROK-Japan coordination.
    Pyongyang's new diplomacy is the result of three 
developments, no change of heart, its desperate economic 
situation, Kim Dae-jung's patient diplomacy, and closer U.S.-
Japan-South Korean trilateral coordination. A close trilateral 
relationship raises the cost for North Korean belligerence and 
defines the international community's terms for economic 
relations should the North change its stance. The United States 
should therefore support the trilateral coordination and 
oversight group process.
    I think we must be firm and strong in dealing with North 
Korea, but I do think that we should avoid unnecessary 
bellicosity or demonizing. One of the welcome results of 
President Kim's policy has been the elimination of such 
language by the North both in the media and along the DMZ, 
reducing the hostile atmosphere.
    Finally, I think our policy should make it clear to the 
North that it is in their interest to work with us in making 
the peninsula and northeast Asia a more stable place, and to 
enable them to do that finally without losing face.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Laney follows:]

               Prepared Statement of Hon. James T. Laney

    I want to express my appreciation for the privilege of appearing 
before this distinguished Committee today. I have been involved with 
Korea since I first went there in 1946 in Army Counter Intelligence, 
later as an educational missionary from 1959-64, and more recently as 
ambassador from 1993-97. Needless to say, it is a subject close to my 
heart.
    There are three parts to our Korean policy. The first is to 
maintain, with our staunch ally Seoul, a robust and unassailable 
deterrence. The second is to support the South's initiatives toward the 
North to reduce tension and encourage Pyongyang in opening up to the 
rest of the world. The third is for the U.S. to engage the North in 
negotiations designed to end the threat of nuclear weapons and missiles 
on the peninsula.

          1. The U. S. must continue to invest in the U.S.-ROK security 
        partnership. The U.S.-ROK alliance has been extraordinarily 
        successful at underpinning stability in Northeast Asia and 
        establishing a position of strength for South Korea to test 
        reconciliation with the North. Seoul has clearly stated that 
        the U.S. military will remain critical to its security even 
        after the North Korean threat is gone. It is consistent with 
        Seoul's efforts at reconciliation for the U.S. and ROK 
        governments to point in specific terms to the North Korean 
        threat and to continue reinforcing deterrence, particularly in 
        the areas of counter-battery fire, missile defense, and 
        protection against weapons of mass destruction. The U.S. should 
        improve U.S.-ROK joint readiness in these areas and to begin 
        preparing the alliance relationship for a longer-term role in 
        regional security.

          2. South Korea has made important progress in tension 
        reduction with the North and should have U.S. support. Seoul's 
        strategy of cooperation and reconciliation with North Korea has 
        moved the political dynamics on the peninsula in a positive 
        direction. It is true that without a reduction of the North 
        Korean military threat and improvement in human rights in the 
        North, diplomacy with Pyongyang will only go so far. However, 
        these should be the goals of policy and not preconditions for 
        the South's efforts at tension reduction. Kim Dae Jung's focus 
        on cooperation and reconciliation is the right way to begin the 
        process and is clearly in U.S. interests, and we should offer 
        full support for his initiatives.

          3. It is in U.S. interests to negotiate a verifiable 
        elimination of North Korea's long-range missile program. Last 
        year, North Korea appeared interested in negotiating a 
        comprehensive agreement to reduce its long-range ballistic 
        missiles in exchange for various inducements. Such an agreement 
        cannot be achieved without lengthy and deliberate negotiations 
        followed by effective verification measures. Nevertheless, the 
        scope of North Korea's proposal was unprecedented. The North 
        would prohibit all exports of long-range missiles and related 
        items in exchange for in-kind assistance in categories such as 
        food. In addition, the North said it would ban further 
        indigenous testing and production above a certain range in 
        exchange for in-kind compensation and assistance with launching 
        commercial satellites. However, in working-level talks the 
        North balked at ``intrusive'' verification, did not address 
        already deployed missiles, and remained vague about the exact 
        threshold for ``long-range'' missiles.

          The United States should resume talks on missiles in the near 
        future, but must make the bottom line clear: 1) effective 
        verification; 2) elimination of long-range missiles already 
        deployed; 3) provision of in-kind assistance to the North that 
        would not include sensitive technology transfers; and, 4) 
        movement toward subsequent steps to reduce tensions and the 
        conventional military threat. If these objectives can be met, a 
        broad agreement with North Korea on missiles would be a 
        significant accomplishment and would enhance both stability in 
        Northeast Asia and the South's efforts at reconciliation.

    In the meantime, the United States should invite its allies to 
review the Agreed Framework, but there should be no unilateral changes 
by any party. The 1994 Agreed Framework has frozen North Korea's known 
nuclear weapons program. Any review should focus on both the remaining 
challenges to full implementation of the Agreed Framework as well as 
potential opportunities to engage North Korea on a revision of the 
terms to meet Pyongyang's immediate energy needs. It is striking, for 
example, that the North has recently asked for direct electrical energy 
from the South until the light water reactors are ready. The South is 
under no obligation to provide this energy and should not do so without 
linking it to the North's obligations under the Agreed Framework. 
Nevertheless, this new development suggests that some reworking of the 
1994 accord might be possible. The United States should stand by its 
commitments and its allies and make no unilateral changes to the Agreed 
Framework, and not accept any delay in the nonproliferation milestones 
contained within it. However, circumstances may require a fresh 
collective look at the LWR project.
    The U.S. must also continue energetic trilateral U.S.-ROK-Japan 
coordination. Pyongyang's new diplomacy is the result of three 
developments: the North's desperate economic situation, Kim Dae Jung's 
patient diplomacy, and closer U.S.-Japan-South Korean trilateral 
coordination. A close trilateral relationship raises the cost for North 
Korean belligerence and defines the international community's terms for 
improved economic relations should the North change its stance. The 
U.S. should support the Trilateral Coordination and Oversight Group 
process.
    While we must be firm and strong in dealing with North Korea, it 
does not follow that we must necessarily be bellicose or employ 
demonizing language. One of the welcome results of President Kim's 
policy has been the elimination of such language by the North both in 
the media and along the D.M.Z., reducing the hostile atmosphere. 
Finally, we must make it clear to the North how it is in their 
interests to work with us in making the peninsula a more stable place, 
and to enable them to do that without losing face.

    The Chairman. Thank you, sir. We have been joined by the 
distinguished Ranking Member, Senator Biden. Do you have any 
opening comments?
    Senator Biden. Mr. Chairman, I would ask unanimous consent 
my comments be placed in the record. I apologize to the 
witnesses for being tied up. I am anxious to hear and ask 
questions, but thank you.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Today, the Foreign Relations Committee examines the future of U.S. 
policy toward North Korea. This hearing is particularly timely, as the 
administration is in the middle of its Korea policy review.
    I am glad that President Bush is spending some time to make sure 
the administration gets Korea policy right. It's a new administration, 
and it is understandable that they will need a few months to get their 
feet on the ground.
    But I hope the administration will expeditiously complete its 
review and that it will conclude, as I have, that the best way to 
advance our interests is to join with our South Korean, Japanese, and 
European allies in a hard-headed strategy of engaging North Korea and 
luring it out of its isolation.
    Over the April recess, I asked a member of the staff of the Foreign 
Relations Committee to travel to Northeast Asia to explore the 
prospects for peace and reconciliation on the Korean Peninsula. He was 
the first member of the United States Government to travel officially 
to North Korea since President Bush was inaugurated.
    In a report released today, he concludes that North Korea is 
engaged in a major strategic opening to the outside world, and that 
this opening may afford the United States a unique opportunity to rein-
in the North's nuclear and ballistic missile programs.
    I urge the administration to test North Korea's commitment to 
peace. Specifically, I hope the administration will ``pick up where the 
Clinton administration left off,'' on missile talks, as Secretary 
Powell pledged prior to the arrival of South Korean President Kim Dae-
jung to Washington last March. North Korea earlier this month 
unilaterally extended its missile launch moratorium until 2003.
    If that is not a signal of its willingness to talk about this 
issue, I don't know what is.
    Progress on the missile issue would have profound implications for 
U.S. security interests not only on the Korean Peninsula, but around 
the world. If we were able to curtail North Korea's development and 
export of long-range missiles, we would gain much-needed time and 
flexibility in our own deliberations on national missile defenses.
    President Bush has wondered aloud whether engaging North Korea is 
``naive,'' and he has expressed his skepticism about North Korea as a 
negotiating partner. Who can blame him?
    One of our witnesses today--Chuck Downs--literally ``wrote the 
book'' about North Korea's truculent negotiating tactics, and another--
Dean Gallucci--suffered through months of meetings with ornery North 
Korean counterparts.
    Ambassador Laney knows the difficult challenges of negotiating not 
only with North Korea, but also with our South Korean allies!
    I can't speak for them, but I would wager that all of our witnesses 
would endorse an approach to North Korea based on President Reagan's 
famous maxim of ``trust, but verify.''
    In the case of North Korea, perhaps we should ``mistrust, and 
verify.'' But we should also remember to keep our eye on the ball.
    Advancing vital U.S. interests over time is the objective of 
engagement, not a prerequisite for dialogue.
    Some may argue that no verifiable deal is possible. There will 
always be those who prefer inaction to action, and sometimes their 
pessimism is warranted.
    But the nay-sayers argued that North Korea would never sign the 
Agreed Framework and permit 24-7 International Atomic Energy Agency 
monitoring of its nuclear facility at Yongbyon, never shut its 
reprocessing plant, never let U.S. military personnel search for the 
remains of U.S. servicemen missing from the Korean War, never permit 
inspections of a suspicious underground military facility, never 
approve Chinese-style economic reforms, never permit monitoring of food 
aid deliveries, and never permit travel across the DMZ from Seoul to 
Pyongyang.
    And they were wrong on all counts.
    So I think we should give it a try.
    I look forward to hearing from our distinguished panel of witnesses 
and to getting their advice on how the United States can best secure 
its vital national interests on the Korean Peninsula.

    The Chairman. Mr. Downs.

 STATEMENT OF MR. CHUCK DOWNS, FORMER DEFENSE POLICY ANALYST, 
  HOUSE REPUBLICAN POLICY COMMITTEE AND CONSULTANT, McLEAN, VA

    Mr. Downs. Thank you, Mr. Chairman. I appreciate being 
invited to discuss this issue with such a distinguished panel.
    We should ask from the outset why we are all here today 
talking about North Korea. When you look at North Korea from 
any distance, you realize that it is a small, resource-poor, 
and very unpleasant country to deal with. Nicholas Eberstadt 
and Richard Ellings have just released a book today on North 
Korea that points out its population is roughly the same as 
Romania, and its international trade is essentially the same as 
Nepal's. Yet we deal with North Korea as though it is an issue 
of great international significance, and it is.
    But the reason that we deal with North Korea is because of 
its threats and because of its misery. Many have called for the 
Bush administration to forthwith resume direct negotiations 
with North Korea, presumably on the same basis that the Clinton 
administration had pursued its relations with North Korea. 
North Korea itself has called for a resumption of the talks, 
although North Korea was just a few years ago, extremely 
reluctant to enter into talks with the United States. There has 
been deep congressional disapproval of past policies that needs 
to be attended to before talks can resume.
    As you know, I served on the staff of the House Policy 
Committee, and I would like to point out some of the actions 
taken by the House in recent years. In the 1999 DOD 
Authorization Act, the Congress called for the creation of a 
North Korea policy coordinator. That began the ``Perry 
process.'' In the year 2000, both Houses of Congress passed the 
North Korea Threat Reduction Act, which required Presidential 
certification that North Korea had complied with the Agreed 
Framework and the nonproliferation treaty's commitments.
    In this past year there have been efforts, one called 
Gilman-Markey, a bipartisan House of Representatives effort 
requiring that before nuclear components could be transferred 
to North Korea there should be a positive action to approve a 
transfer on the part of the U.S. Congress. This passed the 
House of Representatives by a vote of 374 to 6. There was also 
a provision called Cox-Markey prohibiting U.S. indemnification 
of companies involved in the North Korean Nuclear Project. That 
measure was approved by 334 Members of the House of 
Representatives to 85.
    There have been significant concerns voiced in this 
process: No. 1, the danger from plutonium that would be 
produced by light water reactors, No. 2, the larger question of 
enriching the regime with aid even while the regime's people 
suffer severely, and No. 3, the question of whether the Agreed 
Framework, which provides for light water reactors, can 
actually be implemented--that is, whether it is technically 
possible to carry out many of the provisions of the agreement.
    Talks can always be supported in general terms, but 
advanced coordination, as I think Ambassador Gallucci just 
pointed out quite articulately, is always essential for the 
process. Furthermore, we must be careful not to give the regime 
increased leverage as we push for a resumption of negotiations. 
In a context of a policy that has, at best, produced mixed 
results with North Korea, it is highly valuable for the new 
administration to conduct a thorough and wide-ranging policy 
review.
    The current hiatus in direct negotiations between North 
Korea and the United States is not merely an opportunity for 
the Bush administration to get its act together. It is also an 
opportunity to test North Korea's commitment to fulfill the 
rhetoric of cooperation that we have heard so much of in the 
last year. Furthermore, it is an opportunity to test the theory 
that guided so much of the Clinton administration's approach. 
If North Korea in fact recognizes that because of its economic 
difficulties it must pursue reform in order to survive, that 
commitment on their part should be reflected in their behavior 
today.
    During this time of review by the Bush administration, 
however, Pyongyang has been sending signals that it seeks to 
control the pace and substance of negotiations. In a sense, 
this is not surprising, and it is certainly consistent with 
Pyongyang's negotiating strategy over the long term. North 
Korea has emphasized that it can turn the heat higher or lower, 
as it sees fit, in moves that appeared generous but was 
actually subtly coercive.
    For example, Pyongyang said that it would continue its 
informal commitment not to test missiles until 2003, depending, 
it said, on the outcome of the Bush administration's review. 
This is an understandable, perhaps even clever ploy, but it 
should be recognized as an attempt to pressure both the Bush 
administration and South Korea. In South Korea, the implication 
is that the North's apparent cooperation may end when Kim Dae-
jung leaves office.
    Similarly, the flap over the Bush administration's 
statements on verification and reciprocity has also been 
instructive. The notion that there should be verification and 
reciprocity is not new. In fact, both terms were used by 
Secretary Perry in the Perry report, but this past January, 
when now-Deputy Secretary of State Richard Armitage mentioned 
the need for these two objectives, North Korea's official news 
service released a stream of invective.
    What matters now is thoroughness. The thoroughness with 
which the Bush administration addresses the issues, and the 
ongoing consultations with our allies and friends must send 
strong signals to Pyongyang about the character and operational 
sophistication of the Bush administration. Lengthy 
consultations have already begun, and I would argue they have 
been quite successful. It would be irresponsible, and, in no 
uncertain terms, unresponsive to the Congress if the Bush 
administration did not take a good period for the review of our 
policy toward North Korea.
    Does that bell mean my time has expired? Thank you very 
much. I will end on that note, then. Thank you.
    [The prepared statement of Mr. Downs follows:]

                   Prepared Statement of Chuck Downs

                   NORTH KOREA'S NEGOTIATING BEHAVIOR
    Mr. Chairman, I appreciate your invitation to appear before the 
Senate Foreign Relations Committee today to discuss our nation's policy 
toward North Korea. Although I have, in the past, served at the 
Pentagon and on Capitol Hill, I am not here to speak on behalf of the 
administration, the Department of Defense, or the House of 
Representatives. As you mentioned, I have written a book about North 
Korea's negotiating behavior that tracks their negotiating strategy 
over the five decades. I think there are very clear patterns that 
emerge from this study that can inform our discussions of how to 
proceed with North Korea, and I appreciate the opportunity to share 
some of my conclusions with the Committee.
    First, we need to recognize how crucial the process of negotiation 
is to the North Korean regime. Few nations put such strong emphasis on 
the importance of negotiation as a principal instrument of foreign 
policy. When other nations have done so, it has often been because they 
entered negotiations from a position of strength. The North Korean 
regime, however, pursues negotiation because of its weakness. Simply 
put, negotiation is North Korea's means of obtaining benefits its 
system cannot provide.
    It stands to reason that North Korea's leaders have more intimate 
familiarity with the failures of their own system than we do. They are 
unenviably aware of the conditions Dr. Vollertsen has described to us 
today. We talk of the regime's impending collapse, but they have been 
burdened with a failing system for fifty years. Their behavior at the 
negotiating table reveals their fears about their system.
    The negotiating record shows that the North Korean regime has been 
overwhelmingly preoccupied with three principal concerns: the regime's 
tenuous hold on its people's loyalty, the dismal performance of its 
disastrous national economic policy, and the need to enhance the 
regime's survival by maintaining military capabilities that can 
threaten foreign rivals. Coming to the negotiating table has always 
been a means for addressing these severe systemic problems that plague 
the regime. North Korea therefore manages negotiations to accomplish 3 
objectives: (1) to give esteem and power to the regime thereby 
strengthening its oppressive control over its people; (2) to obtain 
economic benefits that the regime's Socialist economy is unable to 
produce; and (3) to buy time and obtain resources for the development 
of threatening military capabilities. The North's military capabilities 
can then be used as a means of internal control and international 
extortion.
    Because North Korea has little to bring to the negotiating table, 
it adopts negotiating stances that perpetually increase its leverage 
for subsequent negotiations. In How Nations Negotiate, Dr. Fred Ikle 
observed negotiations are not merely a question of reaching an 
agreement or not reaching an agreement. There are always at least three 
options at play, and one of the most important is developing the 
prospects for future bargaining. This is where North Korea excels. Even 
when no agreement is reached at the negotiating table, North Korea 
generally ends up in a stronger position than when it started the 
negotiations. In fact, it quite often extracts benefits from the other 
side merely for participating in the negotiation itself.
    Despite the prevalent characterizations of ``lunacy'' in its 
negotiating style, North Korea has been extraordinarily consistent in 
how it accomplishes its objectives. It has repeatedly initiated 
negotiation by appearing to be open to fundamental changes in its 
policies, used its willingness to participate in talks to demand pre-
conditions, benefits and concessions, and terminated discussions when 
it has gained maximum advantage, blaming the lack of agreement on the 
other side of the table. It manages negotiations so that its 
adversaries experience stages of optimism, disillusionment, and 
disappointment. Adversaries' disappointment, in turn, paves the way for 
North Korea to create an illusion of fresh cooperation in the initial 
stage of the next negotiation. It's all about increasing North Korea's 
leverage in the next round of talks.
    It is worth recalling that not long ago, the United States and 
South Korea had to cajole North Korea to attend talks on missile 
proliferation by offering to give North Korea humanitarian aid--
primarily food. Now, North Korea complains that the new Administration 
is dragging its feet on proceeding with such talks. Little, if 
anything, has changed in North Korea's position or its resistance to 
restraints on missile proliferation. It certainly is no less committed 
to driving a hard bargain; but it knows that complaining about some 
perceived slight enhances its leverage by increasing pressure on the 
Bush administration.
    Almost anything can be used to enhance leverage. A case in point is 
the anticipated visit of Kim Jong Il to South Korea in reciprocity for 
Kim Dae Jung's courageous visit to Pyongyang last year. The people of 
South Korea fervently hope to see it happen, and the outpouring of 
emotion if the visit goes well will be unparalleled. Knowing this, the 
North Korean regime delays and hedges regarding the proposed visit in 
order to increase leverage in its dealings with South Korea. It is on 
again, off again, depending on how Pyongyang wishes to express pleasure 
or displeasure with South Korea.
    Meetings between North and South Korea have diminished since Vice-
Marshal Cho Myung-rok visited Washington last October. At that time, 
North Korea shifted its attention from Seoul to Washington. 
Nevertheless, Pyongyang recently found a way to put additional pressure 
on Seoul and Washington. It said that North-South dialogue would be 
``suspended'' until after the Bush administration completed its review 
of North Korea policy.
    It is common for analysts of North Korea to discuss the gestures 
that North Korea made during the past year as though they indicated 
fundamental changes in North Korea's character. The hospitality, even 
charm, of Kim Jong-Il has been viewed as evidence that North Korea 
wishes to change its offensive behavior. Kim Jong-Il's facility in 
handling policy discussions, the joint North-South appearance at the 
Olympics, the exchange of visits between Pyongyang and Washington, and 
the January visit of Kim Jong Il to Shanghai have all been applauded. 
Pictures of smiling faces from Pyongyang accompany news of increased 
diplomatic ties between North Korea and Italy, Australia, the 
Philippines, Canada, Germany, Belgium, the UK, Netherlands, Spain, New 
Zealand, and Turkey. Many hope these developments signal a reversal of 
years of tension on the Korean peninsula.
    At the same time, North Korea's gestures could be inspired by the 
opposite purpose--to strengthen the regime, increase its oppressive 
control over its own people, and purchase time and resources for the 
North's expanding military machine. Although there is certainly a 
different tone in the regime's approach to other nations, there has not 
been a commensurate change in North Korea's internal or international 
policies or actions.
    Unfortunately, North Korea's management of similar periods of 
``opening'' in the past suggest that North Korea can be expected to 
reverse its approach whenever it concludes it has gained the maximum 
benefit for its show of charm. There were two earlier promising periods 
surrounding agreements in which North Korea was believed to be 
``opening up'' toward the outside world: the South-North Communique of 
July 4, 1972 and the agreements signed in 1992, one on denuclearization 
and another called the basic agreement on North-South relations.
    The 1972 communique produced agreement on principles that were 
largely identical to the agreement reached a year ago. In the euphoric 
words of the 1972 agreement, ``unification shall be achieved through 
independent efforts without being subject to external imposition or 
interference'' and ``through peaceful means, and not through the use of 
force against each other.'' A ``South-North Coordinating Committee'' 
(SNCC) was established ostensibly to carry out the objectives of the 
agreements. At Kim Il-Sung's insistence, however, the implementation 
terms required subsequent agreement by both parties. Thus, North Korea 
retained an ability to block the enforcement of agreements it had 
already agreed to.
    In the thirteen months following the 1972 communique, the two 
Koreas convened six North-South Coordinating Committee meetings, seven 
Red Cross plenary meetings, and numerous related subgroup meetings. 
Despite the electrifying momentum behind the communique and the 
succeeding months of contact, however, all the talks failed when the 
North tired of the process and stopped attending meetings.
    Another period of euphoria followed the important North-South 
documents signed in 1992. The 1992 agreements were considerably more 
detailed than any that have been signed between the Koreas before or 
since. In them, the North and South agreed not to ``test, manufacture, 
produce, receive, possess, store, deploy or use nuclear weapons'' and 
to ``use nuclear energy solely for peaceful purposes.'' Both sides 
agreed they would ``not possess nuclear reprocessing and uranium 
enrichment facilities,'' and would verify denuclearization of the 
Korean Peninsula through mutual inspections. This formal, signed 
document stated that South and North Korea would ``establish and 
operate a South-North Joint Nuclear Control Commission within one 
month.''
    Like the implementing arrangements of the 1972 communique, however, 
the implementing arrangements for the 1992 agreements required 
subsequent mutual agreement and therefore could be blocked by North 
Korea. The promising 1992 accords also came to naught.
    Advocates of a conciliatory approach to North Korea suggest that 
times have changed, and North Korea's economic worries require North 
Korea to take a more accommodating approach to the outside world.
    The logic behind the Clinton administration's approach to North 
Korea rested on a pragmatic belief that the pressure from economic and 
political collapse would naturally bring about change in North Korea. 
One of the administration's leading experts on Korean issues, 
Ambassador Charles Kartman, observed in 1997, ``dire prospects are 
pressing the North Korean leadership to review its traditional 
isolation, a development we, the ROK, and others want to encourage.'' 
Madeleine Albright, on her first visit to Korea as Secretary of State, 
said the prospects for peace on the Korean peninsula depended 
``basically on how much the North Koreans are hurting,'' and concluded, 
``North Korea has begun to move, ever so slowly, in the direction of 
greater contact and openness with the outside world.''
    While Clinton administration officials claimed North Korea's 
difficulties would bring about reform, however, they supported efforts 
to ameliorate the difficulties that presumably spurred the impulse to 
reform. They contributed food and economic assistance to North Korea 
that made the Stalinist country the largest recipient of American aid 
to Asia. U.S. aid to North Korea went from zero before the Clinton 
administration to more than $270 million annually, a total of almost $1 
billion over President Clinton's two terms.
    This huge amount of aid was meant as a humanitarian gesture that 
would lure North Korea out of isolation, but when the regime controls 
the means of distribution, any benefit received from the outside can 
actually enhance the regime's oppressive control. The regime itself 
determines that food supplies, health services, and commercial 
investments are provided to those who are loyal and withheld from those 
who are not. On September 29, 1998, the charitable organization 
Medecins Sans Frontieres (MSF-Doctors Without Borders) withdrew its aid 
workers from North Korea because it observed the regime ``feeding 
children from families loyal to the regime while neglecting others.'' 
As the defector, former General Secretary of the Korean Worker Party 
Hwang Jang Yeop explained, ``North Korea controls the entire country 
and people with food distribution. In other words, food distribution is 
a means of control.'' External assistance also permits the regime to 
redirect its people's labor and resources from addressing desperate 
economic problems to strengthening military capabilities.
    While American policymakers believe collapse is inevitable, the 
policy of intervening to cushion collapse may yet prove it is not. The 
danger in providing aid to North Korea is that the United States will 
bear responsibility for prolonging the regime's survival. In economic, 
political, security, and moral terms, shouldering the burden of helping 
the North Korean regime survive is a dubious objective for American 
foreign policy.
    North Korea, not surprisingly, does not subscribe to the notion 
that its collapse is inevitable. As deplorable as it may seem, North 
Korea's national objective is not to ensure its people's survival; it 
is to ensure the regime's survival. In this regard, weaponry is a more 
important investment than agriculture. Just as the North Korean regime 
can subvert the world's humanitarian impulses to reinforce its 
oppressive domestic policies, it can also take advantage of the world's 
confidence in security arrangements to gain time and resources to 
develop new military technology.
    The Clinton Administration signed, on October 21, 1994, an informal 
bilateral arrangement called the Agreed Framework. It promised to 
deliver to North Korea light water reactors nuclear electric generating 
plants--in exchange for a freeze on construction of North Korea's 
nuclear energy facilities.
    One of the terms of the 1994 agreement called for the United States 
and North Korea to ``work together to strengthen the international 
nuclear non-proliferation regime.'' In spite of the North's commitment, 
after 1994, North Korea developed an extensive network for the 
proliferation of its missile technology.
    It was able to sell missile technology to Pakistan, Libya and Iran. 
Pakistan put the North Korean technology to use in its launch of the 
Ghauri missile, a No-dong derivative, on April 6, 1998. Security 
analysts believe that test launch tipped the scales in India's decision 
to test nuclear weapons a month later. Iran used the North Korean 
technology in its launch of a Shahab-3 missile, a Taepo-dong 
derivative, on July 21, 1998. The Shahab 3 has a range of 1,300 
kilometers, allowing it to ``strike all of Israel, all of Saudi Arabia, 
most of Turkey, and a tip of Russia . . . [and] put at risk all U.S. 
forces in the region.'' After the tests, Iran and Pakistan returned 
important test data to North Korea that was useful in North Korea's own 
missile program.
    The degree to which this technical exchange enhanced North Korea's 
capabilities was revealed at the time of the fiftieth anniversary of 
the founding of the North Korean Workers Party. On August 31, North 
Korea launched a three-stage Taepo-dong 1 missile 1,380 kilometers 
across Japan and into the Pacific Ocean.
    The missile launch was an undeniably threatening act. It revealed 
with absolute clarity that North Korea had attained a new capability to 
threaten every part of the territory of two American allies--Japan and 
South Korea as well as the nearly 100,000 American troops stationed 
there. Asia's fragile confidence in America's ability to ensure 
security, which keeps South Korea from developing long-range missiles 
and Japan, Taiwan, and South Korea from developing nuclear 
capabilities, was called into question. The North Korean regime had 
apparently decided that lulling the West into a false sense of security 
was no longer as advantageous as threatening it.
    Contrary to the Clinton administration's view that the agreed 
framework heralded a more accommodating North Korean approach to the 
outside world, North Korea actually undertook to develop a more 
threatening military posture after signing the agreed framework. North 
Korea's nuclear program did not stop, according to testimony the 
Director of Defense Intelligence gave before Congress in 1998. In fact, 
by the time of the Perry report in 1999, the Clinton administration 
could no longer claim that the ``verifiable freeze'' Under Secretary 
Slocombe had trumpeted in 1994 was still in effect.
    The Speaker of the House of Representatives commissioned a special 
study of how North Korea's behavior had changed in the years following 
the Agreed Framework. That report concluded ``the threat from North 
Korea has advanced considerably over the past five years, particularly 
with the enhancement of North Korea's missile capabilities.'' These 
findings were corroborated by CIA Director George J. Tenet when he told 
a Senate hearing on February 7, 2001, ``the North Korean military 
appears for now to have halted its near-decade-long slide in military 
capabilities and is expanding its short- and medium-range missile 
arsenal.''
    In the context of a policy that has, at best, produced mixed 
results, it is highly valuable for the new administration to conduct a 
thorough and wide-ranging policy review. The current hiatus in direct 
negotiations between North Korea and the United States is not merely an 
opportunity for the Bush administration to decide what course it will 
pursue as it sorts out these and other issues surrounding American 
policy toward North Korea. It is also an opportunity to test North 
Korea's commitment to fulfill the promise contained in the rhetoric of 
cooperation that has flourished in the year since the summit between 
Kim Dae Jung and Kim Jong Il. Furthermore, it is an opportunity to test 
the theory that guided so much of the Clinton administration's 
approach. If North Korea recognizes that it must change in order to 
survive, that effort should continue even without direct talks between 
Washington and Pyongyang.
    During this time, Pyongyang has been sending signals that it 
controls the pace and substance of negotiations. It has subtly 
emphasized that it can turn the heat higher or lower as it sees fit. In 
a move that appeared generous, but was actually coercive, Pyongyang 
said it would continue its informal commitment not to test missiles 
until 2003, depending on the outcome of the Bush administration's 
review. This is an understandable, perhaps even clever, ploy, but it 
should be recognized as an attempt to pressure both the Bush 
administration and South Korea where the implication is that the 
North's apparent cooperation may end when Kim Dae Jung leaves office.
    Similarly, the flap over the Bush administration's statements on 
verification and reciprocity was also instructive. The notion that 
there should be verification and reciprocity in arrangements with North 
Korea is not a new idea--in fact, both terms were used in the Perry 
Report--but in January when (now) Deputy Secretary of State Richard L. 
Armitage mentioned the need for reciprocity and verification, North 
Korea's official news service unleashed a stream of invective. At about 
the same time, when Secretary Powell pointed out Kim Jong Il is a 
dictator, something Madeleine Albright had also done, Pyongyang pushed 
back by calling Powell a ``gangster-like criminal.'' It is valuable to 
recognize the relative unimportance of such posturing.
    What matters is the thoroughness with which the Bush administration 
addresses the issues surrounding policy toward North Korea. The 
questions raised about the technical feasibility and proliferation 
dangers of proceeding with the construction of the light water reactors 
are among the questions that demand a serious re-assessment. For the 
Bush administration to have proceeded without a substantive review 
would have sent the wrong signals throughout Asia and weakened 
America's prestige.
    Moreover, the depth of on-going consultations with our allies and 
friends is sending strong signals to Pyongyang about the character and 
operational effectiveness of the Bush administration. Lengthy, 
collegial consultations between officials of the Bush administration 
and the government of the Republic of Korea have already demonstrated 
how strong and resilient the foundation of the U.S.-ROK alliance is. An 
additional meeting of American, Japanese and Korean officials is 
planned next week. The conclusions of the Bush policy review are 
expected to be announced in June. Nothing meaningful has been lost 
during this review, but much has been gained. This period of review is 
laying the foundation for the difficult tasks that lie ahead in dealing 
with North Korea.

    The Chairman. Mr. Vollertsen.

    STATEMENT OF DR. NORBERT VOLLERTSEN, VOLUNTEER, GERMAN 
                   EMERGENCY DOCTORS, GERMANY

    Dr. Vollertsen. Mr. Chairman, Senators, ladies and 
gentlemen, first I want to apologize for my poor German 
doctor's English. I do not want to sound stupid because this 
problem is so serious, but I am not a native language speaker. 
Sorry for that.
    Senator Biden. We noticed, doctor, none of us are speaking 
German, so you are not the stupid one.
    Dr. Vollertsen. I was a member of German Emergency Doctors 
who entered North Korea in July 1999 to carry out humanitarian 
assistance. I remained in North Korea for 18 months, until I 
was expelled on December 30, 2000. Early during my stay I was 
summoned to treat a workman who had been badly burned by molten 
iron. He was one of my patients. I volunteered my own skin to 
be grafted onto this patient. For this action I was nationally 
acclaimed by the media, many, many journalists, television, 
like here, and I was awarded in the end as the first Western 
foreigner the Friendship Medal of the North Korean People. 
Together with this medal I was issued, and that was much more 
important, a so-called VIP passport and a private North Korean 
driving permit which allowed me to travel to many areas 
inaccessible to foreigners and even to the ordinary North 
Korean citizens.
    Because of my so-called VIP status, I also was invited many 
times by the authorities of the government, and I learned about 
their nice lifestyle, in Korean, fashionable, fancy 
restaurants. A lifestyle like this, I was invited to those 
guesthouses. I know about their lifestyle. I learned about 
fancy restaurants, guesthouses, the casino, even a Chinese 
night club in Pyongyang.
    When my driver was hospitalized because of a fractured 
skull, I learned that there are special hospitals for the elite 
in Pyongyang which are well-equipped like a German hospital, X-
ray, MRI, ultra-scan, EKG, Japanese newest models.
    On the opposite side I saw the children in the hospitals of 
the countryside starving and dying. For 1\1/2\ years I took 
care of 10 hospitals, 3 orphanages, and several hundred 
kindergartens all over the countryside. Every hospital was 
crowded with around 200 patients, and I saw no improvement in 
the general condition of these people because of a lack of food 
still going on, despite the enormous help of the outside world, 
and I wondered about the contrast. Where is all of the food aid 
going?
    As an emergency doctor, I also took care of all the victims 
of any accident in and outside Pyongyang. In combination with 
my Friendship Medal and VIP passport, I got a lot of access, 
and I learned about the real life of the ordinary people. I 
traveled around 70,000 kilometers in this country.
    My basic medical diagnosis was that all of these people in 
North Korea are mainly depressed. They are fed up, exhausted, 
and they are suffering from a so-called burn-out syndrome. They 
are fed up, and they are all extremely afraid. They are full of 
fear, and we were never allowed to prove why. We got no answer.
    I only was allowed to make pre-announced monitoring in 
order to look at where the food is going to, like all the other 
humanitarian NGO's and aid workers in Pyongyang, and many of 
those persons, the NGO's, were my patients too, because they 
were all suffering under the unreal scenario of unreal 
monitoring.
    During my 1\1/2\ year stay, the children in the hospitals 
were starving in the beginning and in the end of my stay. Even 
me, I was not allowed to travel to all areas in North Korea in 
order to count all the dead people. I do not know, 2,000, 
200,000, 2 million dead people, I do not know. I was never 
allowed to prove it.
    I saw one soldier who was obviously tortured, and I was not 
allowed to take a picture of this soldier, and so I do not have 
any evidence, no photos. I do not have any evidence about those 
so-called reform institutions. This is the criminal law of 
North Korea, and I can prove it, as you, Mr. Chairman, quoted 
it. It is written here what is the minimal punishment in this 
reform institution.
    In order to get the knowledge, if there is any reason for 
this frightenedness, I looked around. I tried to speak to all 
those people. I tried to get the journalists interested in this 
question. I arranged a private trip for all of those 
delegations, all of those journalists who accompanied Mrs. 
Albright when she was in Pyongyang, and I arranged a private, 
secret trip, and I showed them around the hidden things in 
North Korea.
    After I was expelled because of my actions, after all of 
those trips, I interviewed around 100 refugees in South Korea 
and Seoul, and I got the knowledge that there is something 
cruel going on. I got the evidence. I got the reports, the 
written accounts of all those refugees, and because my time 
here is limited to 5 minutes I cannot talk 5 hours about North 
Korea. I wrote a book about this. It is published in Japan now, 
the Japanese edition. It will be soon published in Korea, and 
then hopefully here in the United States.
    I believe in the power of information. My approach is to 
open the country by journalists. I believe that there is 
engagement, and maybe a degree of pressure by brave journalists 
who try to enter the country. I think we have to care. Look 
into the eyes of those children, and then try not to care. 
Those are the victims of this government and they are starving 
and they are dying, and it is my duty, especially as a German.
    You know about German history. We were all accused that we 
did not care about rumors of concentration camps in Germany, so 
I think it is my duty to learn from history that even when 
there are rumors about concentration camps in North Korea, that 
I have to care, and I beg you all, do the same. Try to help 
those people, because the North Koreans are nice, warm-hearted 
people. They are the victims of this government. They are not 
devils. They are not enemies. They are those who are suffering. 
Try to help them.
    Thank you very much.
    [A report and prepared statement of Dr. Vollertsen 
follows:]
                        LIFE UNDER THE RED STAR

                            A Prison Country

                        (By Norbert Vollertsen)

A Report From Inside North Korea
Tuesday, April 17, 2001 12:01 a.m. EDT

    I know North Korea. I have lived there, and have witnessed its hell 
and madness.
    I was a doctor with a German medical group, ``Cap Anamur,'' and 
entered North Korea in July 1999. I remained until my expulsion on Dec. 
30, 2000, after I denounced the regime for its abuse of human rights, 
and its failure to distribute food aid to the people who needed it 
most. North Korea's starvation is not the result of natural disasters. 
The calamity is man-made. Only the regime's overthrow will end it.
    Human rights are nonexistent. Peasants, slaves to the regime, lead 
lives of utter destitution. It is as if a basic right to existt--to 
be--is denied. Ordinary people starve and die. They are detained at the 
caprice of the regime. Forced labor is the basic way in which ``order'' 
is maintained.
    I will recount some of my experiences. Early in my spell in North 
Korea I was summoned to treat a workman who had been badly burned by 
molten iron.
    I volunteered my own skin to be grafted onto him. With a penknife, 
my skin was pulled from my left thigh and applied to the patient. For 
this, I was acclaimed by the state media--the only media--and awarded 
the Friendship Medal, one of only two foreigners ever to receive this 
honor.
    I was also issued a ``VIP passport'' and a driver's license, which 
allowed me to travel to areas inaccessible to foreigners and ordinary 
citizens. I secretly photographed patients and their decrepit 
surroundings. Though I was assigned to a children's hospital in 
Pyongsong, 10 miles north of Pyongyang, I visited many hospitals in 
other provinces. In each one, I found unbelievable deprivation. Crude 
rubber drips were hooked to patients from old beer bottles. There were 
no bandages, scalpels, antibiotics or operation facilities, only broken 
beds on which children lay waiting to die. The children were emaciated, 
stunted, mute, emotionally depleted.
    In the hospitals one sees kids too small for their age, with hollow 
eyes and skin stretched tight across their faces. They wear blue-and-
white striped pajamas like the children in Hitler's Auschwitz. They are 
so malnourished, so drained of resistance, that a flu can kill them. 
Why are there so many orphans? Where are all the parents? What passes 
here for family life?
    In North Korea, a repressive apparatus uncoils whenever there is 
criticism. The suffocation, by surveillance shadowing, wire-tapping and 
mail interception, is total. Most patients in hospitals suffer from 
psychosomatic illnesses, worn out by compulsory drills, innumerable 
parades, ``patriotic'' assemblies at six in the morning and droning 
propaganda. They are toilworn, prostrate, at the end of their tether. 
Clinical depression is rampant. Alcoholisim is common because of 
mindnumbing rigidities, regimentation and hopelessness. In patients' 
eyes I saw no life, only lassitude.
    Once, I had an opportunity to visit my driver, a member of the 
military, who was in the hospital because of injury. The authorities 
were vexed that I wanted to see him, but I was able to overcome 
objections. As was my custom on hospital visits, I took bandages and 
antibiotics--basics. On this occasion, I was embarrassed to see that, 
unlike any other hospital I visited, this one looked as modern as any 
in Germany. It was equipped with the latest medical apparatus, such as 
magnetic resonance imaging, ultrasound, electrocardiograms and X-ray 
machines. There are two worlds in North Korea, one for the senior 
military and the elite; and a living hell for the rest.
    I didn't see any improvement in the availability of food and 
medicine in any of the hospitals I worked in during my entire stay. One 
can only imagine what conditions are like in the ``reform 
institutions,'' where whole families are imprisoned when any one member 
does or says something that offends the regime. These camps are closed 
to foreigners.
    My initial naviete that the starvation was the result of weather 
conditions disappeared when I saw that much of the food aid was being 
denied those who needed it most. Before Cap Anamur came to North Korea 
other agencies such as Oxfam and CARE pulled out because they weren't 
allowed to distribute aid directly to the people. They had to turn it 
over to the authorities, who took complete charge of distribution. 
Monitoring is imposible. Nobody really knows where the aid is going, 
except that it is not going to the starving citizens.
    If a doctor's diagnosis is that North Korea suffers from society-
wide fear and depression because of the cruel system, he has to think 
about the right therapy and to speak out against repression. The 
international community, especially humanitarian groups, must demand 
access to the shadowy world of labor camps, hidden from us by the 
system.
    The system's beneficiaries are members of the Communist Party and 
high-ranking military personnel. In Pyongyang, these people enjoy a 
comfortable lifestyle--obscene in the context--with fancy restaurants 
and nightclubs. In diplomatic shops, they can buy such delicacies as 
Argentine steak, with which they supplement their supplies of food 
diverted from humanitarian aid. In the countryside, starving people, 
bypassed by the aid intended for them, forage for food. Pyongyang is 
fooling the world.
    As a German, I know too well the guilt of my grandparents' 
generation for its silence under the Nazis. I feel it is my duty to 
expose this satanic regime, which has deified ``Dear Leader'' Kim Jong 
Il, just as it did his late father.
    Even though virtually the entire North Korean economy is geared to 
the military, we should help ordinary citizens. But this must be on 
condition that aid goes to the deserving. Foreign NGOs, journalists and 
diplomats must be free to travel unannounced to the provinces to ensure 
that aid isn't misdirected. Only pressure on North Korea can save 
lives. The people can't help themselves. They are brainwashed, and too 
afraid to be able to overthrow their rulers. That's the medical 
diagnosis. Only the outside world can administer the right therapy and 
bring about a reformation of this depraved nation.

              Prepared Statement of Dr. Norbert Vollertsen

    In recent years, there has been a number of credible international 
reports expressing grave concern with the human rights violations in 
North Korea. However, little evidence has been available on the issue 
due to the strict controls on all information by the North Korean 
authorities.
    However, since 1992, some North Koreans who defected to South Korea 
began to inform us of shocking crimes against humanity perpetuated in 
North Korea massively and systematically. They include two former 
prisoners in one of the detention settlements for political prisoners 
(concentration camps), two former guards at several of these life 
detention settlements and a prisoner of one of the women's prisons in 
North Korea. Unfortunately, their witness accounts have been in Korean 
and failed to attract international attention. Attached is a summary 
and an analysis in English of their accounts for your consideration.
    Surprisingly, their accounts, full of details, have so many 
incidents in common even though they were from entirely different 
social backgrounds and arrived in South Korea at different times. They 
did not know each other and were not aware of earlier allegations when 
they told us about what they have actually experienced or witnessed.
    In my opinion, further evidence and information is required to 
verify their accounts. At the same time, however, the alleged 
atrocities appear to be of such serious nature, perhaps the worst 
crimes against humanity in the world today, that I call for a special 
international scrutiny to be immediately organized in the name of 
humanity. Your kind attention and action will be greatly appreciated.
    For the sake of credibility, the stories were presented with as 
much detailed information as possible (e.g., time, place, and people 
involved). Consideration was given to distinguish between eye-witness 
account (i.e., what they actually witnessed or experienced) and hearsay 
evidence (i.e., what they heard through word of mouth about what 
everybody believed).
    We believe that all the imaginable atrocities known to humankind 
have been exhausted in North Korea's detention settlements and 
political prisons. However, we wish to reserve our comments on some of 
the allegations of extreme atrocity, such as feeding a newly-born 
infant to a dog, and concede that the possibility exists for 
exaggeration, misunderstanding, or even falsehood. Nevertheless, we are 
convinced that the most abominable and horrifying crimes against 
humanity, worse than those of Nazi concentration camps, Soviet gulags, 
or anywhere else, have been perpetuated in North Korea for decades. 
Although the twentieth century has witnessed terrible bloodshed from 
ethnic cleansing and genocide, political oppression, and religious 
hostilities, none has surpassed, we believe, the crimes of North Korea 
in terms of length, systematic practice, terror, and secrecy. We are 
convinced that the worst crimes in the world today are being committed 
daily in North Korea.
    The allegations of the murderous treatment of prisoners and crimes 
against humanity appear credible, as they are consistent with the well-
publicized harsh style of the North Korean government and the various 
international reports. Nonetheless; we wish to again reserve comment on 
some of the extreme incidents subject to further verification on the 
basis of new evidence and further information hopefully to be available 
in the near future.
    It would be, therefore, inappropriate to generalize the conditions 
of political prisoners in North Korea on the basis of these extreme 
cases. At the same time, it would be equally inappropriate to simpiy 
discredit such allegations for the lack of undisputed evidence. Under 
the most conservative estimate, North Korea has committed and is 
continuing to commit grave human rights violations and crimes against 
humanity massively, systematically and constantly, most likely the 
worst in the world today.
    In the worst case scenario, the world has entered the new 
millennium optimistically but not realizing that in North Korea, the 
most blatant, tragic, and heinous acts of the past century continue to 
persist. We are only anxious to gather further evidence and information 
so that the North Korean prison settlements and everything that goes on 
within those cold fences will be exposed to the world and the innocent 
prisoners will one day realize that they were not forgotten and there 
have been those who sought their freedom.
    We wish to bring to your attention once again the criminal nature 
of concentration camps under Hitler and Stalin in the past and to the 
existence of such camps, worse than anything previous, in North Korea 
today.

  <bullet> Hitler and Stalin have returned, hand in hand, with improved 
        skills of crimes against humanity.

  <bullet> Hand in hand, Hitler and Stalin have joined together and are 
        now experimenting their improved skills of crimes against 
        humanity in North Korea before spreading the new skills to the 
        rest of the world.

  <bullet> North Korea is an upgraded version of Hitler and Stalin put 
        together.

  <bullet> What Would You Do If Nazi Germany Were Still Reigning and 
        Asking for Your Help to Feed Its Starving Germans While 
        Numerless Innocent People, Women and Children, Continued to 
        Perish in Nazi Concentration Camps Today?

  <bullet> In other words, what would you do if Nazi Germany or 
        Stalin's USSR were still reigning today but no longer powerful 
        to defy international pressure, and asking for your help to 
        feed their starving flood victims today while countless 
        innocent men, women and children continued to perish in their 
        concentration camps?

  <bullet> We believe that this is exactly the situation we face when 
        considering humanitarian assistance to North Korea.
  <bullet> A child is now drowning. Would you not do anything simply 
        because it is not your mandate?

    This is exactly the situation you are up against when you consider 
appeals from North Korea for humanitarian assistance. Without prejudice 
to your offer of help, we are calling upon you to ask the North Korean 
government, out of international humanitarian obligation, whether or 
not there are concentration camps in North Korea.
    Atrocities and cruelty, far exceeding Hitler's and Stalin's 
concentration camps, are daily and routine taking place behind closed 
doors in North Korean concentration camps today because the government 
of North Korea thinks nobody knows or cares about it. Your simple 
inquiry, reveal a worldwide knowledge of their camps, will make a 
difference between life and death for many and contribute to the 
improvement of conditions there, even though the Government will deny 
the accusation and the victims will not be released immediately.
    You are in position to make that difference for some 200,000 poor 
victims in North Korean concentration camps. At every opportunity, 
simply ask, ``Do concentration camps exist in North Korea?''
    Human (humanitarian) obligation that transcends one's position or 
nationality.
    If Germans are starving while innocent peoples are perishinging in 
concentration camps under Hitler's Nazis today, how would you direct 
your humanitarian assitance to reach innocent victims? This is exactly 
what is happening in North Korea today.
    I wish to make available to a wide international audience the stark 
realities of the existence of concentration camps in North Korea today 
and the plight of some 200,000 innocent people, including women and 
children. These people have been detained without judiciary process and 
live under the most atrocious and cruel conditions, perhaps exactly the 
worst in the world today.
    Convincing evidence has come to our attention from a variety of 
sources indicating that today the worst crimes against humanity are 
being committed in these camps on a massive and systematic basis. The 
existence of these camps and the bleak conditions and atrocities 
committed there are undeniable as seen from eyewitness accounts from 
former prisoners and guards.
    We believe that unless we stop such crimes against humanity from 
being committed in North Korea today they are bound to spread and occur 
elsewhere. We call on the international community to intervene in the 
situation as a matter of international responsibility by asking the 
North Korean authorities, as a first step, to explain their defiance of 
humanitarianism. We believe that international intervention works.
    We are convinced that the North Korean authorities today continue 
what we believe to be clearly a crime against humanity with impunity 
behind closed doors because they believe that few know and care about 
it. Therefore, you can help some 200,000 innocent people, including 
women and children, in concentration camps in North Korea by simply 
asking the North Korean authorities today, out of international 
humanitarian obligation and human compassion, if indeed there are such 
camps in North Korea.

    The Chairman. Thank you very much, doctor.
    Suppose we have a round of about 7 minutes each and we will 
see how we do on that.
    I am fascinated by your presentation, Dr. Vollertsen. You 
mentioned that the food aid inspection process in North Korea 
is rigged, and that the North Korean elites are profiting from 
the aid they get from the West. Now, do you have a suggestion 
about how to rectify that situation?
    Dr. Vollertsen. Try to engage, get more NGO's in, try to 
ask for free movement, freedom of the press, free movement for 
the aid workers, free movement for the diplomats, and mainly 
free movement for the journalists. Let them take the pictures 
of how the children are eating.
    The Chairman. Well, that is very sensible, and I agree with 
you, but should we cease humanitarian aid until North Korea 
verifiably allows the aid to go to those who need it most?
    Dr. Vollertsen. No. I think try to continue, and even 
improve, but try to argue and try to argue for more NGO's so 
that there is real monitoring, and the easiest way to do it is 
to ask for free movement so that they are allowed to go to any 
place in North Korea without any pre-announcement. Now, they 
can only go where there is a pre-announcement, and then 
everything is prepared, and it is a fake. Everything is 
prepared, and no real situation can be proven.
    I was an emergency doctor, and whenever there was an 
accident there was no prior arrangement. I managed to go into 
the hospital when nothing was pre-arranged, and found there was 
no food, no medicine, no equipment, and I wondered where all 
the food aid is going.
    The Chairman. Well, I agree with that, but this business of 
getting to it and correcting it, which is not a simple process, 
you mentioned that the North Korean people suffer from 
psychosomatic illnesses. Do you want to elaborate on that a 
little bit?
    Dr. Vollertsen. I think everybody can think about himself, 
when he is suffering from a bad marriage, or suffering from a 
bad job, or suffering from bad education or whatever. He cannot 
change the situation he is suffering, so the depression is 
intense. He will get depressed, and from a doctor's view, you 
can see that he will get stomach problems or ulcers, or 
whatever, even cancer.
    Throughout my medical life as a medical doctor I realized 
that most of the people who cannot change their social 
situation get sick. Those people in North Korea, the main 
disease is that they are depressed, they are afraid, they are 
afraid to speak out because they are afraid for their families 
and for their own lives.
    The Chairman. Now, I want to move on to Mr. Downs and 
others, but on the refugee situation I want to discuss that 
briefly.
    Dr. Vollertsen. I met those North Korean refugees direct at 
the North Korean-Chinese border I examined them. I checked them 
in a medical way, and through the translator and some 
journalists, brave journalists who tried to get the evidence, I 
interviewed them, and they all told me the same thing. They 
told me how 9-year-old boys, and 65-year-old ladies, talked 
about concentration camps, prison camps, reform institutions 
with torture, mass execution, public execution, killing of 
babies, killing of pregnant women. They even talked about 
cannibalism and I beg you to prove this.
    It is not my duty. I am not a policeman, but according to 
German law I can go to a police station and accuse when there 
is something going wrong and that is the only wish I have. 
Prove if there is any evidence for concentration camps, and 
when it is proved, then it might be even worse than in Hitler's 
Germany.
    The Chairman. Well, you have made quite a contribution to 
this hearing, and I appreciate it.
    Now, the next question goes to any of the other three or 
all. Henry Sokoski and Victor Galinsky have identified the fact 
that it would take at least 3 years for the IAEA fully to 
inspect and document North Korea's nuclear program, something 
that is required before key nuclear components can be shipped 
to North Korea under the Agreed Framework.
    Now, given the obvious fact that we are at the stage 
whereby ``key''--and I put quotation marks around key. Key 
components will need to be delivered also in about 3 years. 
Does it make really any sense to proceed with the Agreed 
Framework at this time, and I would like all three of you to 
address that.
    Ambassador Gallucci. Mr. Chairman, I would like to take a 
shot at that.
    My recollection of the language of the framework is tat it 
says that in effect none of the equipment that is listed on the 
trigger list of the nuclear supplier guidelines, which is 
really the key equipment for a nuclear reactor, can be 
delivered to North Korea until the IAEA is satisfied with 
respect to the implementation of the full scope safeguards 
agreement. It may be true that an observer can look at the 
timeline and say, gee, that should come about in about 3 years, 
and gee, therefore the IAEA should start the process.
    But this was a political agreement, the Agreed Framework 
with North Korea, and North Korea is still acting consistent 
with the terms of the agreement to delay the imposition of 
safeguards by the IAEA or the safeguards inspections until it 
comes time for delivery of that equipment.
    Now, something should be quite obvious, which is that in 
the end here the time schedule for the construction of the 
reactors will be held up to the extent that North Korea does 
not cooperate with the IAEA. I do not want to be crude here, 
but that is all right with me. I mean, the idea here was to 
stop a nuclear weapons program.
    We have a lot of other objectives, and you mentioned some 
of them in your opening statement. There were discussions about 
the conventional forces forward-deployed, about the ballistic 
missiles, but the North Koreans, if they wish to go slow with 
respect to safeguards, will slow down the construction of the 
reactor, and they will carry the burden for that, and that is 
not, in my view, necessarily a bad thing.
    The Chairman. Senator Biden.
    Senator Biden. Thank you very much. First of all, thank you 
for being here, and Doctor, for your humanity and concern the 
fact that you would give of your time and your effort as a 
medical doctor to be in Korea or any other place where you are 
trying to change the human condition is admirable, and I admire 
your work. I admire what you are doing, and what you were 
doing.
    Dean, let me ask you about the Agreed Framework for a 
moment. Is there any case that can be made that the North 
Koreans are violating the terms of the Agreed Framework?
    Ambassador Gallucci. Senator, I am not intimately aware of 
the discussions that must occur between the IAEA and the 
inspectors who go there regularly and the North Korean side. To 
my knowledge, I know of no substantive area in which the North 
Koreans are acting inconsistent with the framework. One used to 
be able to argue that they were not engaging the South in 
serious dialog, but now that President Kim Dae-jung has gone 
North I think that is a harder case to make, so I think I would 
not say there is no substantive violation that has been made 
public.
    Senator Biden. Ambassador Laney, if I may ask you, if the 
North Koreans--if we were to engage the North Koreans, this 
administration, in follow on negotiations where things left 
off, if not under the same conditions but just begin to engage 
North Koreans after this review that Mr. Downs and others have 
spoken of, I assume at some point the administration is going 
to say, we have reviewed, we have made a judgment, and we are 
either not going to talk to, we are going to talk to, we are 
going to talk to under following conditions, whatever. They are 
going to say something at some point in the relatively near 
term.
    Assume they were to follow, after the review, the judgment 
initially enunciated by Secretary Powell, and I am 
paraphrasing, where Powell said there are some very promising 
possibilities--I forget the exact phrase, but that is about it, 
some promising possibilities that are worth pursuing, and again 
I am paraphrasing. I am not quoting him.
    Assume they pursued, they, this administration, pursued 
after review along the lines that Powell had stated a month 
ago, or whenever the timeframe was, and focused on what was one 
of the remaining issues, verification. That is, the 
verifiability of the North Koreans that they (a) were not 
engaging in a continuation of seeking long-range missile 
capability, (b) that they were not producing fissile material 
to produce nuclear bombs, and (c) they were not proliferating 
the technology they now possess to other countries which they 
have in the past, and may be doing now, in return for 
something. I want to get to the something later.
    But the first thing would be, verifiability. I think any 
administration hopefully would conclude that you would need a 
verifiable agreement, whatever the terms were. Is verifiability 
able to be accomplished? That is, is there any circumstance 
that you know of that would make it virtually impossible for 
there to be a verifiable agreement, or is it possible to have a 
verifiable agreement? Not will they, but is it possible?
    Ambassador Laney. It is certainly possible. Given North 
Korea's record it is going to be very difficult and, in fact, 
that was the reason why the breathtaking offer that North Korea 
made was not brought around to any kind of conclusion last 
fall, was because it foundered on the very issue of 
verifiability.
    Senator Biden. That is not what I was told. I spent over 3 
hours with Sandy Berger, with the Secretary, with Strobe 
Talbott, and with Perry's assistant, Wendy Sherman.
    I understand it foundered on practical domestic political 
considerations, rightly or wrongly, that since it did not get 
sufficiently underway, that is, the verification talks, prior 
to the election, and the election had already taken place, that 
the sine qua non for the North Koreans moving forward was, they 
wanted an appearance of the President in North Korea to sort of 
legitimize them. That is something the administration was not 
prepared to do unless they had a more concrete assurance as to 
what the nature of the discussion relating to verifiability 
would be. By the time they got around to that the election had 
occurred. The President was, I think rightly, in the position 
of suggesting that President Bush had appeared to have won, 
although it was being contested. The President did not feel 
that it would be appropriate to go forward without consulting 
President-elect Bush, or the likely President. And yet to do so 
would have gotten the President in the middle of the election 
process by, in effect, conferring on Bush the status of being 
elected before that was followed through in the courts. That 
seems to me different than having arrived, as I understood you 
to say, at a judgment that the North Koreans were unwilling to 
deal with verifiability.
    Dean, do you have a view on that?
    Ambassador Gallucci. I do not, on this. I want to make a 
plea that as we focus on verification, because nobody wants to 
trust North Korea, that we be reasonable about this at the same 
time. We have what used to be called national technical means, 
but there are no real verification provisions in the Agreed 
Framework. We have national means to verify compliance to some 
degree, and then, if there is a problem, we have an agreement 
of sorts in which the North Koreans have invested to give us 
access, to insist upon physical access.
    Similarly, I would say when you look at this case, if you 
are talking about the ballistic missile components, there are 
four. It is the testing, the deployment, the production, and 
the export, and the verification requirements for these four 
are all different. For testing you do not need very much, for 
export we need a little more, arguably for deployment we need a 
little more, and for production we need the most. But we should 
be looking to compare the right things.
    Whatever verification we were able to negotiate, we should 
then compare what that gives us to not having the agreement at 
all, and not to some abstract notion of perfect verification.
    Senator Biden. I was not suggesting there had to be perfect 
verification. There are some, like my good friend the chairman 
of the committee, and he is my good friend, who often quotes--I 
forget who it is you quote, Mr. Chairman, when you say that 
whoever it was said ``we have never lost a war nor won a 
treaty,'' and there are those like the chairman who feel very 
strongly that there is verification, and then there is 
verification, and we probably disagree on the degree to which 
we have to verify whether we are dealing with Russians or we 
are dealing with anyone. That is an ongoing dispute.
    But my time is up. I may come back to it, and I wanted to 
get to you, Mr. Downs, about verification, not now because my 
time is up. I will come back, but just to talk with me a little 
bit about what you believe the parameters are, what is required 
for verification and whether or not you think that it is worth 
attempting to determine whether or not the North Koreans are 
prepared to engage in such a dialog. I would be interested to 
know your views, but again, please let me give you a heads-up 
and I will come back to you on that.
    Thank you very much.
    The Chairman. I know the media and others will be dying to 
know who said that. That was Will Rogers, who could have been 
elected from either party, he was that popular. He chose not to 
be a politician.
    Senator, we welcome you, sir.
    Senator Nelson. Mr. Chairman, I am particularly interested 
in Korea. On the Easter break I went with Senator Shelby to a 
number of countries, including Korea, and I thank you for the 
opportunity of this hearing. I am interested to know, in your 
view, how should the United States respond to the President of 
South Korea's desire to negotiate a North-South peace 
agreement?
    Ambassador Laney. Well, if I may begin, Senator, I think 
that first of all the issue of the peace agreement is one that 
lies somewhat in the future. The more immediate issue, I think, 
for the President of South Korea is the United States 
Government's support for its strong ally, Seoul, and its 
attempt to engage the North in whichever ways are currently 
underway, and that eventually would include an attempt to come 
to some sort of peace agreement or peace treaty.
    I think at this point the issue that faces the U.S. 
Government is the extent to which it sees its relationship with 
Seoul as the primary tie, and the principal foreign policy 
piece for the Korean Peninsula, and growing out of that, then 
the support for that government's initiatives in engaging the 
North.
    Parallel with that, I think it is necessary to so engage 
the North in terms of trying to negate, as we have been talking 
about, the missile threat, and that has many aspects of 
verification and so forth.
    The issue of how difficult that is going to be, and how 
protracted that sort of a negotiation might become remains to 
be seen. I am sure it will be both. Whether it is impossible, 
or whether it is not worth doing, I think is another issue 
altogether, but I think at this point the concern that I have 
about the posture of the United States with regard to Korea is 
the growing concern in South Korea that we are not fully 
supporting them, and they do not want to return to the cold war 
mentality.
    We can all bring a brief against the atrocities and the 
evil aspects of North Korea, but the engagement policy of 
President Kim Dae-jung has changed the dynamics on the 
peninsula, and even though his popularity has plummeted, it is 
way down, there is a broad base--maybe as much as 80 percent of 
the populace, in support for a general approach to the North, 
some kind of engagement policy that continues reducing tension, 
avoiding war, and finally getting rid of the weapons of mass 
destruction, maybe leading to a peace treaty.
    So in all of that I am saying the first thing is, we need 
to let South Korea know that we support them, and in doing that 
we encourage them in their attempts to engage, but that also in 
our turn we do the things that are necessary for us to do 
regarding missiles and weapons of mass destruction, and I think 
that would be very affirming, very strengthening for the South. 
There have been some very blistering editorials in South Korean 
papers about what they feel is a coolness toward the 
relationship.
    Now, historically I would say for 50 years we have put as a 
mantra that our relationship with Seoul is the most important 
thing. We need to continue that.
    Senator Nelson. And that has been a given, and you are 
talking about your concern about the coolness as a result 
primarily of the recent visit of President Kim here with 
President Bush?
    Ambassador Laney. Whether or not it is justified, the fact 
is, as I understand it, Deputy Secretary Armitage carried a 
letter from President Bush to President Kim supporting his 
efforts and I do not know the contents, but in other words, of 
giving some affirmation, which I think was very well-received. 
That was just in the last couple of weeks. That kind of 
affirmation, they do not want to be left out or feel like there 
is some sort of distance between us and them, I think.
    Senator Nelson. Let me ask you this, any of you. There was 
some reaction in the South Korean press to President Kim's 
continuing initiatives as if they were not being received or 
reciprocated by the North Korean leadership. Give me your 
comments on that.
    Ambassador Laney. Well, I will speak very briefly, then 
turn it over, but that is very true, and this is part of his 
decline in popularity. That I think, if Kim Jong-Il of North 
Korea returned in a summit to the South, that would greatly 
answer that barrage of criticism.
    Senator Nelson. That is true with regard to the reaction of 
the press, but in your opinion is, in fact, that is true? 
President Kim does not think so.
    Ambassador Laney. We were talking about public opinion?
    Senator Nelson. No. I am talking about what you think about 
his initiatives to the North, and if they are being 
reciprocated.
    Ambassador Laney. Well, I think that they have been 
reciprocated. I think in the last 6 months there has been a 
noticeable lull, and this is a cause of concern both in Seoul 
and in Washington, obviously.
    Mr. Downs. If I might, I would offer an alternative view. I 
do not think that the initiatives of President Kim Dae-jung 
have been reciprocated by North Korea. I think that North Korea 
has manipulated every situation to obtain additional leverage, 
and as Ambassador Laney said, there has been a reduction in 
contacts in the last 6 months, and it goes back to a precise 
moment. It goes back to the moment when Vice Marshall Cho came 
to Washington.
    At that point, North Korea was able to shift its focus from 
North-South talks to North-Washington talks. The U.S. always 
has a better purse to offer North Korea, so North Korea will 
always seek to deal directly with the United States when they 
can push South Korea out. In the same way, they will deal with 
South Korea when they think they have reached a standstill with 
the United States, which is what they did last April.
    Senator Nelson. So you would take the cynical view, as 
opposed to the optimistic view of President Kim?
    Mr. Downs. Yes. There was definitely a difference in tone, 
but very little in terms of specifics.
    Ambassador Gallucci. I agree about 90 percent with what was 
just said, but there is a 10-percent difference. In other 
words, I think there is a trilateral political relationship 
here, but I would frame it differently. I would say that the 
North right now is holding negotiations, and specifically the 
visit to the South, hostage, waiting for the United States to 
finish its policy review and reengage with the North, that once 
we do, then I think we will see a willingness on the part of 
the North to engage with the South.
    We have made it quite a central feature of our discussions 
with the North that there needed to be some parallelism in 
terms of reduction in tensions in the dialog with the South. I 
do think that the North attempts, whenever it can, to play one 
off against the other and use leverage back and forth, but I 
think the outcome that would be acceptable to them and should 
be acceptable to us is one in which negotiations are proceeding 
at the same time, we with the North and the South with the 
North.
    Senator Nelson. Mr. Chairman, may we get the Doctor's 
response?
    The Chairman. Sure, go right ahead.
    Dr. Vollertsen. I would totally agree with Mr. Chuck Downs, 
and recall the subtitle of his book: ``The North Koreans' 
Negotiation Strategy.'' They are very, very clever, and I met 
all those guys in Pyongyang. I spoke to the Vice Minister of 
Foreign Affairs. I learned about their strategy. I was present 
during the first diplomatic talks with the leader of the German 
Interest Section, and I learned about their strategy to get as 
much as they can without giving anything in response.
    And my latest news from Pyongyang--via e-mail I am still in 
contact with my former colleagues in Pyongyang. I am checking 
my e-mail every morning. I get the latest news from Pyongyang. 
There is no more free movement for the NGO's, no free movement 
for any journalists, no free movement for any diplomats.
    There was an agreement, a five-point agreement with Germany 
where they guaranteed this when there are open diplomatic 
channels. This agreement was signed, but nothing is fulfilled, 
and my colleagues told me that it is even getting worse. There 
are more military posts on the street. There are more policemen 
there at the Chinese-North Korean border. The situation for the 
refugees is getting worse.
    After all this publicity in the newspapers, in Time 
magazine, in Newsweek, it is more dangerous for the refugees to 
cross the border because the North Korean soldiers there at the 
border, they are very keen to suppress these actions and this 
information. So it is going down. All those preparations to 
reconnect the railroads, for example, to reconnect the 
motorways and whatever else was promised during the last 
summit, it is all going down. I think it was only a trap in 
order to get the money from the European countries, from Japan, 
from the United States, to get the donations.
    I know that they are very, very proud about their army. 
They are very, very proud about their manpower in the army, and 
I know that there are many, many things in North Korea to hide. 
I know that they are very, very afraid about a situation of 
collapse similar to Romania. They know very well when the 
outside world will discover what is going on in the North 
Korean concentration camps, there will really be an outrage. 
There may be opposition of their own people, even maybe 
rebellion, or even maybe the same outcome as in Romania. They 
are very aware of this, and they are afraid of this, so I think 
they will not change by themselves.
    The Chairman. Doctor, I admire your passion, and I can tell 
by the expressions on the other witnesses faces that they do, 
too.
    Let us see, the North Koreans have offered to extend the 
current missile test moratorium to when, 2003, or something 
like that?
    Mr. Downs. Yes, 2003.
    The Chairman. Do you think we ought to--well, I will put it 
another way. How do you think we ought to interpret that, and I 
would ask all three of you.
    Mr. Downs. Mr. Chairman, if I could respond to that, I 
would like to point out that there is an imbalance--and this 
follows up on Senator Nelson's comment as well--there is an 
imbalance in the kinds of things we and North Korea bring to 
the negotiating table.
    They bring promises, pledges, courtesies, kindness, 
handshakes, and we respond with food aid, economic assistance, 
the removal of sanctions and light water reactors, things of 
that nature. We are providing hard, durable benefits the North 
Korean regime can use, and they are satisfying us with things 
like visits and commitments, as you point out, extending to 
2003 the moratorium that they will keep in place as long as 
they feel like it. It is an easy commitment for them to make, 
and there is a hidden bit of leverage in it, because they will 
say that if they can take offense at anything we do, they are 
no longer bound by their own pledge.
    The Chairman. One of my friends is Ruth Graham, Billy 
Graham's wife--excuse me. You wanted to say something.
    Ambassador Gallucci. I wanted to comment on that.
    The Chairman. Please do.
    Ambassador Gallucci. I think I would characterize this 
substantially differently than Mr. Downs. I do believe what the 
doctor has said, and we all have noticed that the North Koreans 
extract everything they possibly can from every discussion. I 
would, as a negotiator, expect no less, and therefore I think 
when we get into negotiations in which we do not expect to 
trust them, we expect a fair amount of cheating when they can 
get away with it, and we expect them to extract everything, we 
have to think about ending up with an arrangement which is in 
the end in our interests.
    So I disagree with Mr. Downs that they come to the table 
and they get everything and we get nothing. I would observe 
that 1993, when the Clinton administration came to office, we 
were looking down the throat of a nuclear weapons program that 
was going to be producing 30 nuclear weapons a year with the 
capability to transfer fissile material and nuclear weapons 
around the world, that that program has been verifiably frozen 
since 1994. That is not nothing. That is close to, in terms of 
negotiating objectives, everything.
    Now, we wanted a whole lot of other things after that, but 
that is what we went after with the Agreed Framework, and we 
got it. Nothing is forever when it comes to this stuff in North 
Korea or Iran, Iraq, or anywhere else, so we have to be aware 
of that, but we got quite a lot.
    You asked, Mr. Chairman, about the moratorium. Now, I do 
not consider that nothing either. If there were a test tomorrow 
morning, that would be pretty big news. The Japanese would be 
very upset. We would be very upset, and it would indicate the 
program was moving ahead at a certain pace, depending upon 
what, exactly, the test was.
    I like the idea that there is a moratorium. I do not 
believe we get gifts from the North Koreans, and I am sure 
there is a calculation behind it, but it is not nothing.
    Ambassador Laney. Well, I agree, Mr. Chairman. I think we 
all are deeply concerned about the human rights abuses and the 
terrible situation that the Doctor has dramatically set forth, 
and we deplore all of this. I mean, you know, we can all agree 
to that. The question is, what are we going to do?
    We can say, well, we are not going to deal with them. All 
right, then we are going to isolate them. Well, what does that 
lead to? If we isolate them, then we take away all the leverage 
they go back to producing plutonium and they go back to testing 
their missiles because we have no leverage on them. Then are we 
going to go to war? How are we going to stop that?
    The question is not whether, but how we deal with them. I 
think this is the issue, and I applaud President Bush's release 
of 100,000 tons of grain. This is not a concessions. This is 
not rung out of us. It is humanitarian. We all have a heart for 
this issue, and we are all perplexed about how to deal with a 
regime we do not like, but it is not going to go away, and we 
have to think about the fact that while we sit over here on 
this side of the Pacific, our allies are 30 miles from the 
barrel of the long-range artillery, and we have to be sure that 
our actions and our statements and our policies do not further 
endanger our allies there and our 37,000 troops.
    Now, that is a very significant issue, and this means that 
we are not going to simply condemn. We are going to have to 
find some way to resolve it. That does not mean we approve it, 
it does not mean we bless it, but it means we are going to deal 
with it, and we are going to deal with it tough, and we are 
going to lay down the law, and we are not going to let them get 
away with things, but they have not gotten--we have not been 
playing the fool.
    We have gotten a whole lot of stuff here. It has been a 
meaningful thing, and the South Koreans would agree they do not 
want to go back to the status quo ante, to the cold war 
mentality. That is a universally held position in South Korea, 
and they do not want us to push them in that direction either.
    Mr. Downs. Well, Mr. Chairman, with all due respect, I have 
tremendous regard for the achievements of Ambassador Gallucci 
in his negotiations with North Korea, and in a sense it is not 
nothing. But it is the absence of something, and we need to 
keep that in mind.
    It is the absence of their offensive behavior on the 
development of nuclear capabilities. It is the absence of their 
violation of previously existing agreements. It is the absence 
of their refusal to allow inspections, and the replacement of 
them with a promise that in the future they will allow the 
inspections that they had agreed to in previous agreements with 
the IAEA 5 years earlier. What we are getting out of the North 
Koreans is a change in their own policy. Essentially that is 
not nothing, but it is not really something. It is a change in 
something that they could have decided to do correctly the 
first time.
    When they behave this way we need to keep it in mind, 
because we need to understand the quality of the regime and how 
it gets advantages, and we need to recognize that what they get 
in return is definitely something. What they get is a new lease 
on life. It means U.S. money and U.S. efforts, U.S. diplomatic 
sponsorship, and sometimes direct aid that allows the regime to 
continue to exist and continue to oppress its people. That is 
very definitely something that we have to be concerned about.
    The Chairman. Mr. Gallucci.
    Ambassador Gallucci. I am not sure I am being responsive 
here, but again for the record, Mr. Chairman, I think it is 
important to point out that we were looking at facilities being 
built in North Korea which were, by the way, not in violation 
of any international undertaking. There is nothing in the NPT 
or the IAEA that says you cannot build gas graphite reactors, 
even though they are the most provocative and dangerous, most 
likely to lead to a nuclear weapons program, which we are 
absolutely confident they were intended to do, but they were 
not in violation.
    This is not a matter of theory. The reactor had operated 
and produced 30 kilograms of plutonium, enough for five nuclear 
weapons. They had that material in spent fuel that was going to 
be reprocessed. They had a reprocessing facility that they were 
expanding. They had two reactors being constructed as we 
watched in slow motion with overhead photography. All that has 
been frozen in place. I submit again, please, this is very 
substantial. That is what got our attention.
    Everything else, virtually, we were aware of, and we knew. 
We knew how horrible the regime was, how awful it treated its 
own people, how threatening it was to the South, but we sat 
essentially confident in a defense and deterrent posture in 
South Korea with North Korea contained.
    The one thing we could not allow to go unaddressed was the 
nuclear weapons program, because of its ultimate possible 
impact, catastrophically on not only South Korea and Japan but 
the United States, if it was ever mated with the ballistic 
missile program, and we acted against that nuclear weapons 
program, and we froze it.
    The question is now, will we act against the ballistic 
missile program and try to freeze that? It will not come free.
    The Chairman. Senator Nelson.
    Senator Nelson. You know, when I was growing up, Mr. 
Chairman, I was taught that partisan politics stopped at the 
water's edge, and I think we have two different points of view 
that are represented here today that reflect whether or not 
this administration did this or that, but the title of your 
hearing today is, where do we go from here, and so as a new 
member on this committee, I would like to further explore, 
given the riveting testimony of the Doctor--one of my closest 
friends up here is Congressman Tony Hall, who has told me what 
he has seen in North Korea, and how pervasive the starvation is 
there.
    We have got a problem. We want to help. The Doctor has 
shared some testimony that he does not think all that food is 
getting there, so where do we go from here?
    Doctor, I want to get back to these folks right here, all 
right. We have gotten certain progress on the nuclear. We have 
got to progress on the missile defense, but what do we do to 
support President Kim to encourage his peace initiatives 
without yanking the rug out from under him?
    Ambassador Laney. Well, I think first of all we need to 
reopen our talks with North Korea on the deployment and testing 
of missiles, and bring those to some sort of positive 
conclusion. I think if that happens that will open the door for 
a reciprocal visit of Kim Jung-Il to Seoul, or wherever that 
summit might take place.
    If I may say so, Senator, I feel that President Kim 
realizes he is in the shank end of his term. He is not a lame 
duck yet, but he is getting close, and I think he realizes that 
the viability of the policy has got to succeed him, not just 
what he can accomplish himself, what the broad-based support 
for a policy of engagement in South Korea, supported by and 
abetted by a strong policy in the United States, and I feel at 
this point that working together in that trilateral 
coordination with Tokyo, Seoul, and Washington at a high level 
is going to work.
    Now, I do not predict it is going to work, but I believe it 
can, but it has to be at a high level. It cannot be done at a 
functionary level. People at that level in North Korea cannot 
do anything. They have got to be up at the top, and I think 
that the appointment of Bill Perry as special reviewer and 
envoy broke the log-jam, and while it did not open every door 
it made a lot of difference, and I think it really paved the 
way for the summit that Kim Dae-jung was able to have with 
North Korea, and so I am very much concerned.
    This is not a give-away or anything else. We need to take 
up the cudgel on the terms that are acceptable to the Bush 
administration, but deal with it and see what kind of deal they 
can get. Going into it, there is nothing there.
    You have got to engage them, and if we do engage them, I 
guarantee you that that will be a support not just for Kim Dae-
jung, frankly. It will be a support for the people of South 
Korea, for South Korea itself, and in the long run we have got 
to maintain that strong relationship, otherwise we are going to 
lose our influence on the Korean Peninsula, and they will fall 
into the Chinese orbit. We are talking regional politics here. 
We are not just talking about North Korea.
    The Chairman. I agree with that. Doctor.
    Dr. Vollertsen. Why not think about teamwork? I always 
believe in teamwork. Why not think about different approaches, 
the combination of all of those different approaches?
    I fully support engagement, because only when there is 
engagement, when there is talking, you can educate the 
opposite. You have to talk to your children. Without any 
engagement they will never be a good human being, so you have 
to talk, so I believe in engagement policy.
    I fully support sunshine policy, because I am from Germany. 
I know about German history. There was Willi Brandt, he opened 
up Germany by a sunshine policy, by the open hand, but I 
disagree with a sunshine policy when they are not allowed to 
talk about human rights issues, about concentration camps in 
North Korea. Then I disagree.
    And I believe in nature. I simply believe in nature. When 
there is only sunshine, and when there is no thunderstorm or a 
little bit of rain, then there is desert. When there is only 
sunshine, then there is no life, and then there are all those 
people like the starving children.
    So I believe in different approaches. Why not create 
teamwork, the nice guy and the bad guy, the nice guy who can 
continue a sunshine policy, maybe the fresh one, the brave one, 
the United States, the Japanese, the Germans. They can insist 
on human rights, and this different approach, maybe it can lead 
to something because there is a German common saying, and maybe 
it works also in diplomacy, ``when you cannot convince them, 
try to confuse them,'' and I learned about the North Koreans, 
that throughout their negotiation strategy they always have 
this black and white scheme. They cannot deal with anybody who 
is friendly on the one side and who is an enemy on the other 
side.
    After this Friendship Medal they called me their closest 
Western friend. Now I am their closest Western enemy, so it is 
up to them. I try to confuse them.
    Senator Nelson. Mr. Chairman, can I ask Mr. Downs to 
respond to Mr. Laney?
    The Chairman. Sure.
    Mr. Downs. Well, I cannot remember, I confess, all of 
Ambassador Laney's points, but I thought many of them were 
extremely good and right on target. I think that there is a 
certain sophistication that we have to bring to our dealings 
with South Korea on trilateral North Korea, South Korea, and 
U.S. issues.
    Quite often we have to restrain ourselves from rushing in 
to replace the role that South Korea would have in its dealings 
with North Korea, so we should maintain some distance both to 
be true to ourselves here in America and to represent what I 
think most American people think about North Korea, and to 
allow South Korea to obtain the benefits of the relationship 
directly to Pyongyang.
    In an ideal world, Pyongyang would be forced to look to the 
South for all kinds of diplomatic and economic benefits. We 
need to encourage them to do so, and yet they will use every 
opportunity to deal directly with the United States, because 
they would rather play in our arena than to deal with the 
South. The South has tools, cultural tools, language tools and, 
I think, intelligence tools that it can use in dealing with 
North Korea that we should respect and allow to function fully, 
and I think that agrees with many of the things that Ambassador 
Laney said.
    The Chairman. Well, I have presided over a lot of hearings, 
and this one ranks very high on the ones that really have been 
of interest to me. I know you gentlemen, each of you came at 
the sacrifice of your time. A good record has been made or is 
in the process of being made, and the Senators who were not 
able to be here are likely to have some questions that they 
would like to pose to you in writing, and I am going to suggest 
that they do so, and I hope that you can find time to respond.
    In the meantime, I am grateful for the time you have spent 
to give me a very informative afternoon. I have been the 
beneficiary of your coming here.
    I have one final question. Have you ever met Franklin 
Graham? He is not a doctor, but he is with the Samaritans, and 
I can see that you do not know him. I am going to have somebody 
give you his name and address.
    Ambassador Laney. I know him, Mr. Chairman.
    The Chairman. Very well. There being no further business to 
come before the committee, with my appreciation to each of you 
once more, we stand in recess.
    [Whereupon, at 4:10 p.m., the committee adjourned.]


</pre></body></html>
